<html>
<title> - [H.A.S.C. No. 114-90] HEARING ON NATIONAL DEFENSE AUTHORIZATION ACT FOR FISCAL YEAR 2017
</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]


                         [H.A.S.C. No. 114-90]

                                 HEARING

                                   ON

                   NATIONAL DEFENSE AUTHORIZATION ACT

                          FOR FISCAL YEAR 2017

                                  AND

              OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS

                               BEFORE THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                SUBCOMMITTEE ON STRATEGIC FORCES HEARING

                                   ON

  FISCAL YEAR 2017 BUDGET REQUEST FOR ATOMIC ENERGY DEFENSE ACTIVITIES

                               __________

                              HEARING HELD
                           FEBRUARY 11, 2016


                                     
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT] 

                               ____________
                               
                               
                   U.S. GOVERNMENT PUBLISHING OFFICE
98-957                     WASHINGTON : 2016                   

_______________________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="caadbaa58aa9bfb9bea2afa6bae4a9a5a7e4">[email&#160;protected]</a>  
 
                                     
  


                    SUBCOMMITTEE ON STRATEGIC FORCES

                     MIKE ROGERS, Alabama, Chairman

TRENT FRANKS, Arizona                JIM COOPER, Tennessee
DOUG LAMBORN, Colorado, Vice Chair   LORETTA SANCHEZ, California
MIKE COFFMAN, Colorado               RICK LARSEN, Washington
MO BROOKS, Alabama                   JOHN GARAMENDI, California
JIM BRIDENSTINE, Oklahoma            MARK TAKAI, Hawaii
J. RANDY FORBES, Virginia            BRAD ASHFORD, Nebraska
ROB BISHOP, Utah                     PETE AGUILAR, California
MICHAEL R. TURNER, Ohio
JOHN FLEMING, Louisiana
                 Drew Walter, Professional Staff Member
                         Leonor Tomero, Counsel
                           Mike Gancio, Clerk
                            
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page

              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Cooper, Hon. Jim, a Representative from Tennessee, Ranking 
  Member, Subcommittee on Strategic Forces.......................     2
Rogers, Hon. Mike, a Representative from Alabama, Chairman, 
  Subcommittee on Strategic Forces...............................     1

                               WITNESSES

Connery, Hon. Joyce, Chairwoman, Defense Nuclear Facilities 
  Safety Board...................................................     6
Klotz, Lt Gen Frank G., USAF (Ret.), Administrator, National 
  Nuclear Security Administration................................     3
Regalbuto, Hon. Monica, Assistant Secretary for Environmental 
  Management, Department of Energy...............................     5

                                APPENDIX

Prepared Statements:

    Connery, Hon. Joyce..........................................    53
    Klotz, Lt Gen Frank G........................................    27
    Regalbuto, Hon. Monica.......................................    44
    Rogers, Hon. Mike............................................    25

Documents Submitted for the Record:

    Statement of Admiral James F. Caldwell, Deputy Administrator 
      for Naval Reactors, National Nuclear Security 
      Administration.............................................    65
    Memorandum for the President from the Secretary of Energy....    69
    Section 3119 of the National Defense Authorization Act for 
      Fiscal Year 2016...........................................    70

Witness Responses to Questions Asked During the Hearing:

    Mr. Bishop...................................................    73

Questions Submitted by Members Post Hearing:

    Mr. Bishop...................................................    92
    Mr. Cooper...................................................    87
    Mr. Garamendi................................................    91
    Mr. Larsen...................................................    90
    Mr. Rogers...................................................    77
    Mr. Wilson...................................................    93
    
 FISCAL YEAR 2017 BUDGET REQUEST FOR ATOMIC ENERGY DEFENSE ACTIVITIES

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
                          Subcommittee on Strategic Forces,
                       Washington, DC, Thursday, February 11, 2016.
    The subcommittee met, pursuant to call, at 2:01 p.m., in 
room 2118, Rayburn House Office Building Capitol Visitor 
Center, Hon. Mike Rogers (chairman of the subcommittee) 
presiding.

 OPENING STATEMENT OF HON. MIKE ROGERS, A REPRESENTATIVE FROM 
      ALABAMA, CHAIRMAN, SUBCOMMITTEE ON STRATEGIC FORCES

    Mr. Rogers. Good afternoon. This subcommittee will come to 
order. We want to welcome to our hearing the President's fiscal 
year 2017 budget request for the defense-related activities 
carried out by the Department of Energy [DOE].
    I want to thank our witnesses for being here today. I know 
it takes a lot of time and energy to prepare for these 
hearings, and I really appreciate your commitment in doing 
that.
    Our witnesses today are Lieutenant General Frank Klotz, 
retired, Administrator, NNSA [National Nuclear Security 
Administration]; Ms. Monica Regalbuto, Assistant Secretary for 
Environmental Management, U.S. Department of Energy; and Ms. 
Joyce Connery, Chairwoman, Defense Nuclear Facilities Safety 
Board.
    General Klotz, you have some very able folks here today in 
support of you. I would like to recognize them. Admiral Frank 
Caldwell. Brigadier General S.L. Davis. And Anne Harrington. 
Glad to have you all here.
    If any of our members have questions directly for these 
folks later in the hearing, we will ensure that they can step 
forward to the table where the microphones are and respond. And 
I know Admiral Caldwell has a supplemental written statement 
that will be introduced and accepted for the record.
    [The prepared statement of Admiral Caldwell can be found in 
the Appendix on page 65.]
    Mr. Rogers. Before I hand the floor over to the ranking 
member, let me briefly highlight just a few key issues for 
today's hearing.
    First, since this is our subcommittee's first budget 
hearing for fiscal year 2017, let me put a marker down. Let's 
start the year by putting to rest the notion that our nuclear 
deterrent is unaffordable. That is just ridiculous. A recent 
think tank report got it right, quote: ``The issue is not 
affordability--rather, it is a matter of prioritization. Should 
nuclear forces, and by extension their modernization programs, 
be given higher priority in the budget than other forces?''
    We have an answer to this question. From the Secretary of 
Defense, the Deputy Secretary of Defense, and the Joint Chiefs 
of Staff, and everyone down the line, senior leaders across the 
board have stated clearly and unequivocally that our nuclear 
deterrent is, quote, ``the Nation's highest priority mission,'' 
close quote.
    So our senior military and civilian leaders have shown that 
our nuclear deterrent will be robustly supported even if it is 
at the expense of other capabilities, because it is our top 
priority. These programs are not optional, and are at the core 
of U.S. security and international stability. And at the very 
center of the core are the people and the programs at NNSA that 
provide our Nation with our nuclear deterrent.
    General Klotz, we are happy to have you yet again at our 
subcommittee representing the dedicated individuals who work at 
our nuclear enterprise. Their important contributions to the 
Nation are largely unsung, but we certainly thank them and know 
what you do and appreciate it. And once again, the subcommittee 
will take a detailed look at the NNSA's budget request and 
scrub it hard to ensure it is meeting the Nation's military 
priorities.
    When it comes to meeting the day-to-day needs of the 
military, NNSA must also focus on the programs that set it up 
for the future. That means having the people and skills, the 
infrastructure and tools, and the structures and processes to 
meet the highly uncertain nuclear future. I fear we are 
focusing too much on the present and not enough on the future. 
But we will be getting into that during the question period.
    Thank you again to our witnesses for being here. I look 
forward to the discussion. Let me now turn it over to the 
ranking member for any opening statement he would like to make.
    [The prepared statement of Mr. Rogers can be found in the 
Appendix on page 25.]

STATEMENT OF HON. JIM COOPER, A REPRESENTATIVE FROM TENNESSEE, 
        RANKING MEMBER, SUBCOMMITTEE ON STRATEGIC FORCES

    Mr. Cooper. Thank you, Mr. Chairman. And I would like to 
also welcome the witnesses.
    It is rare in the modern Congress to have essentially a 
good news hearing, but I think this one of those hearings. I am 
thankful for that, because at least at the authorizing level, 
it looks like these programs are going to be fully funded. In 
some cases, there are increases. In a few cases, there are 
decreases. The leading one is the Nuclear Nonproliferation 
account, which goes down some 6 or 7 percent. But we all have 
to acknowledge that Russia is not exactly a willing partner 
these days to help us contain that massive hoard of fissile 
material.
    But the key bit of good news for folks back home is here 
you have a highly contentious Congress that is agreeing on what 
is our number one defense priority, and we are agreeing on a 
bipartisan basis, and we are putting our money where our mouths 
are. So, that is good news for the American people, that is 
good news for America, that is even good news for this 
Congress.
    So essentially we have a lot to celebrate here. We will 
have not only questions today, but also questions in the closed 
session to follow this. But we should not overlook the central 
fact that the administration and the Republican majority in 
Congress are keeping the nuclear deterrent safe, secure, and 
reliable.
    Thank you, Mr. Chairman.
    Mr. Rogers. I thank the ranking member.
    We now will ask each of our witnesses to make an opening 
statement summarizing their written testimony, and I would like 
to ask you to keep it to 5 minutes so we will have time for 
questions. Your written testimony will be, without objection, 
accepted for the record.
    First, we will recognize General Klotz for any opening 
statement you would like to summarize.

STATEMENT OF LT GEN FRANK G. KLOTZ, USAF (RET.), ADMINISTRATOR, 
            NATIONAL NUCLEAR SECURITY ADMINISTRATION

    General Klotz. Thank you very much, Chairman Rogers and 
Ranking Member Cooper and members of the subcommittee. Thank 
you for the opportunity to present the President's fiscal year 
2017 budget request for the Department of Energy's National 
Nuclear Security Administration. We value this committee's 
leadership in national security, as well as its robust and 
abiding support for the missions and people of NNSA. And thank 
you especially, Chairman, for your kind words for all the 
people, men and women out there, who work in this important 
enterprise.
    Our budget request, which comprises more than 40 percent of 
DOE's budget, is $12.9 billion, an increase of nearly $358 
million, or 2.9 percent, over the fiscal year 2016 enacted 
level. This budget request continues the administration's 
unwavering commitment to NNSA's important and enduring 
missions.
    These missions are defined in the NNSA's Strategic Vision, 
which we released in the fall of last year. These missions 
include to maintain a safe, secure, and effective nuclear 
weapons stockpile; to prevent, counter, and respond to the 
threat of nuclear proliferation and nuclear terrorism; and to 
support the capability of our nuclear-powered Navy to project 
power and to protect American and allied interests around the 
world.
    To succeed, NNSA must maintain crosscutting capabilities 
that enable each of these core missions. Again, as defined in 
our Strategic Vision, these crosscuts focus on advancing 
science, technology, and engineering; supporting our people and 
modernizing our infrastructure; and developing a management 
culture focused on safety, security, efficiency, and adopting 
the best practices across government and the commercial world.
    If you would like, Mr. Chairman, I would be very pleased to 
provide a copy of this document to the subcommittee for the 
record.<dagger>
---------------------------------------------------------------------------
    <dagger> The DOE/NNSA Enterprise Strategic Vision--August 2015 can 
be found at https://www.
scribd.com/document/290190538/NNSA-Enterprise-Strategic-Vision-August-
2015
---------------------------------------------------------------------------
    Mr. Rogers. Without objection.
    [The document is retained in the committee files.]
    General Klotz. The budget materials and briefings we have 
provided over the past 2 days to you and to your staff describe 
NNSA's major accomplishments in the year 2015, as well as the 
underlying rationale for our budget proposal for fiscal year 
2017. Let me just briefly highlight a few points, given the 
time we have.
    First and foremost, the United States has maintained a 
safe, secure, effective, and reliable nuclear weapons stockpile 
without nuclear explosive testing for over 20 years. As a 
result of consistent funding provided by this Congress, 
supported by this subcommittee, and the significant 
improvements that NNSA has made in program management over the 
past 2 years, all of our life extension programs are on 
schedule and within budget.
    NNSA's science and technology base also continues to yield 
critical modeling and simulation data in support of the 
stockpile. In fact, just last year the National Ignition 
Facility at Lawrence Livermore Laboratory increased its shot 
rate, its experiment rate, from 191 in the year 2014 to 356 in 
the year 2015, almost doubling it, including the first-ever 
experiments involving plutonium.
    Our budget request also supports recapitalization of NNSA's 
aging research and production infrastructure, most notably the 
facilities where we perform our major uranium, plutonium, 
tritium, and other commodity operations. Of significance, NNSA 
completed the first subproject for the Uranium Processing 
Facility, entitled Site Readiness, last year, on time and $20 
million under budget.
    As a whole, NNSA will arrest the growth of deferred 
maintenance in fiscal year 2016 thanks to the appropriations 
bill which the Congress passed at the end of last year, and 
with your support for our budget request, we can begin to 
reduce deferred maintenance in fiscal year 2017.
    This year's request for the Defense Nuclear 
Nonproliferation account, as Mr. Cooper pointed out, is 6.8 
percent lower than the fiscal year 2016 enacted levels, for two 
reasons. First, prior year carryover balances are available to 
execute some of the programs. And second, as you know, we 
proposed terminating the Mixed Oxide Fuel Fabrication Project 
and pursuing a dilute and dispose approach as a faster, less 
expensive path to meeting our national commitment and 
international agreement to dispose of 34 metric tons of excess 
weapons-grade plutonium.
    The request for our third appropriation, the Naval Reactors 
Program, keeps pace with mission needs and continues NNSA's 
commitment to the three major initiatives: the Ohio-Class 
Reactor Plant System Development; the Land-based S8G Prototype 
Refueling Overhaul; and the Spent Fuel Handling 
Recapitalization Project in Idaho.
    I am pleased to be joined by my colleague, Admiral Frank 
Caldwell, who is testifying, I believe, for the first time in 
front of this subcommittee.
    For each of these missions, NNSA is driving improvements in 
our management and governance. For all of our programs, we have 
instituted rigorous analyses of alternatives, defined clear 
lines of authority and accountability for Federal and contract 
program and project management, improved cost and schedule 
performance, and ensured that the Federal project directors and 
contracting officers had the appropriate skill mix and 
professional certifications to effectively manage NNSA's work.
    Our budget request for Federal salaries and expenses 
reflects an increasing emphasis on improving program and 
project management across all our mission pillars.
    So in closing, Mr. Chairman, the nuclear security 
enterprise continues to make significant progress. Through 
discipline, careful planning, and your continued and strong 
support, we believe we can make smart investments to build on 
that progress and meet new challenges in the future. Again, 
thank you for the opportunity to appear before you today.
    [The prepared statement of General Klotz can be found in 
the Appendix on page 27.]
    Mr. Rogers. Thank you. There was, as the ranking member 
said, a lot of good news in that opening statement, none better 
than seeing that you are finally starting to cut into the 
backlog of deferred maintenance. That is a nice milestone. I 
appreciate that.
    Ms. Regalbuto, you are recognized for 5 minutes.

  STATEMENT OF HON. MONICA REGALBUTO, ASSISTANT SECRETARY FOR 
         ENVIRONMENTAL MANAGEMENT, DEPARTMENT OF ENERGY

    Secretary Regalbuto. Good afternoon, Chairman Rogers, 
Ranking Member Cooper, and members of the subcommittee. I am 
pleased to be here today to represent the Department of 
Energy's Office of Environmental Management and to discuss the 
work that we have already successfully accomplished and what we 
plan to accomplish under the Presidential fiscal 2017 budget 
request.
    The total budget request for the EM [Environmental 
Management] program is $6.1 billion, which includes $673 
million of proposed mandatory funding and $5.3 billion for 
defense environmental cleanup activities. The request would 
allow EM to maintain a safe and secure posture across the 
complex, while maximizing our work on compliance activities.
    I would like to take this opportunity to highlight a number 
of EM's recent accomplishments. At the Savannah River Site, the 
4,000th canister of radioactive glass was recently poured. 
Achieving the milestone enabled us to close the seven high-
level waste tanks. At the Moab Site, half of the estimated 60 
million tons of uranium mill tailings have been removed and 
shipped to an engineering disposal cell. At Hanford, we have 
completed cleanup of the bulk of River Corridor, including more 
than 500 facilities and 1,000 remediation sites.
    The fiscal 2017 budget request will allow us to continue to 
make progress in ongoing cleanup priorities. Among EM's top 
priorities is the safe reopening of WIPP [Waste Isolation Pilot 
Program]. EM continues to support the recovery from two 
incidents at the facility that interrupted the nationwide 
program for the disposition of transuranic waste. The request 
will support initiating waste emplacement operations by 
December of 2016.
    At Idaho, the request will support the Integrated Waste 
Treatment Unit. This facility is planned to treat approximately 
900,000 gallons of sodium-bearing waste. At the Savannah River 
Site, we will complete construction and ramp up commissioning 
activities at the Salt Waste Processing Facility, which will 
significantly increase our ability to treat tank waste. In 
addition, we will continue to receive, store, and process spent 
nuclear reactor fuel.
    At the Hanford Office of River Protection, the request 
supports continued construction of the Low-Activity Waste 
Facility, Balance of Plants, and outfitting the Analytical 
Laboratory, which are the centerpiece of the Department's plan 
to begin the direct feed of low-activity waste as soon as 2022.
    The request for Richland allows us to continue important 
work on the Central Plateau and to complete the demolition of 
the Hanford Plutonium Finishing Plant, once one of the most 
dangerous buildings in the complex.
    At Oak Ridge, the request supports continuing design for 
the Outfall 200 Mercury Training Facility at the Y-12 National 
Security Complex and complete the demolition of Building K-27, 
the last gaseous diffusion enrichment process building. It will 
mark the first time that a gaseous diffusion enrichment site 
has been completely decommissioned.
    With the most challenging cleanup remaining, we understand 
the importance of technology development in reducing the 
lifecycle costs and enhancing our effectiveness. To help 
address many of the technical challenges involved, the request 
reflects a total investment in technology development of $33 
million. The funding will allow us to continue to integrate 
robotics technologies into our efforts to help improve overall 
work and quality of life by easing the performance of 
physically demanding tasks.
    In closing, I am honored to be here today representing the 
Office of Environmental Management. We are committed to 
achieving our mission, and we will continue to apply innovative 
strategies to complete our mission safely. Thank you, and I 
will be very pleased to take your questions.
    [The prepared statement of Secretary Regalbuto can be found 
in the Appendix on page 44.]
    Mr. Rogers. I thank you.
    Ms. Connery, you are recognized for 5 minutes.

 STATEMENT OF HON. JOYCE CONNERY, CHAIRWOMAN, DEFENSE NUCLEAR 
                    FACILITIES SAFETY BOARD

    Ms. Connery. Thank you. Thank you, Chairman Rogers, Ranking 
Member Cooper, and distinguished members of the subcommittee. 
Thank you for this opportunity to testify on behalf of the 
Defense Nuclear Facilities Safety Board on the fiscal 2017 
budget request.
    My name is Joyce Connery, and I have been with the Board 
for 6 months. I am joined today by two of my fellow Board 
members, Bruce Hamilton and Sean Sullivan. Bruce and I are both 
new to the Board this year.
    As you may know, the Board is the only agency that provides 
independent safety oversight to DOE's defense nuclear 
facilities. These facilities and their operations are essential 
to our Nation's defense, as noted by the chairman. They perform 
work that includes the assembly and disassembly of nuclear 
weapons, surveillance of the stockpile, fabrication of 
plutonium pits and weapons components, production and recycling 
of tritium, nuclear criticality experiments, subcritical 
experiments, and a host of activities to address radioactive 
legacy waste resulting from 70 years of nuclear weapons 
operations.
    The Board's vitally important oversight mission is achieved 
with a relatively small budget and a cadre of technical 
experts. In fiscal year 2017, the Board's budget request is $31 
million and supports 120 FTEs [full-time equivalents]. With 
these resources--and our staff, our people are truly the 
Board's greatest resource--we will continue to perform 
independent safety oversight throughout the complex.
    Within our oversight responsibilities, we strive to 
proactively address safety issues at DOE defense nuclear 
facilities to eliminate threats to public health and safety.
    Specifically, we advise DOE and NNSA on the need to 
effectively integrate safety into the design of new facilities, 
strengthen the protection of workers through improvements in 
work planning and conduct of operations, and to improve 
emergency preparedness and safety culture at sites with defense 
nuclear facilities.
    In recent years, the Board has increased its emphasis on 
emergency preparedness and response capabilities, making 
recommendations both complex-wide and site-specific. The 
complex's aging facilities and resultant backlog of maintenance 
have created additional concerns. Delays to NNSA's efforts to 
modernize its infrastructure can exacerbate safety-related 
issues and require that ongoing work be performed in degrading 
nuclear facilities that do not meet modern safety standards.
    The Board supports DOE and NNSA's efforts to develop new 
defense facilities, and we will continue to work closely with 
them to integrate safety into their designs at the earliest 
possible stages.
    While increasing emphasis has been placed on emergency 
management preparedness and response, I personally have also 
been concerned with the state of the oversight throughout the 
defense nuclear complex and staffing challenges at both the 
Federal and contractor level.
    Difficulties retaining proper technical competencies have 
led to concerns of insufficient Federal safety oversight, and 
similar concerns on the contractor side impact conduct of 
operations.
    Staffing shortages may be the result of an aging and 
retiring workforce, competition for highly skilled workers, and 
compounded by the slow pace of the clearance adjudication 
process.
    Chairman Rogers, Ranking Member Cooper, this concludes my 
opening statement. Thank you again for the opportunity to be 
here today. We at the Board look forward to our continued work 
with this subcommittee, and I stand ready to respond to any 
questions you may have.
    Thank you.
    [The prepared statement of Ms. Connery can be found in the 
Appendix on page 53.]
    Mr. Rogers. Thank you. I thank all the witnesses. We will 
now move into questions, and I will start with myself.
    General Klotz, I want to go back to what I was just talking 
about a minute ago on that deferred maintenance issue. From our 
conversation yesterday, my understanding is this year's fiscal 
year 2016 budget allowed you to basically take care of deferred 
maintenance, to make sure we don't add to the backlog, so 
basically level funded. And from my understanding, this new 
number in fiscal year 2017 will allow you to cut into the 
backlog.
    Can you explain that? Because there seems to be some 
dispute that this number would allow you to actually go into 
the backlog, as opposed to level funding for another year.
    General Klotz. Thank you very much for the question, 
Chairman Rogers. Thank you also very much for your leadership 
on this important issue.
    When I was in the military, I learned that when dollars are 
constrained, the first dollar always goes to operations and 
maintenance of the weapons systems, and the dollar that goes to 
fix infrastructure and facilities always gets deferred to the 
right. And if you keep deferring it to the right, over time you 
get to a point where your facilities and your infrastructure 
reach a tipping point and it begins to impact both operations 
and maintenance, as Chairman Connery just mentioned, in some of 
our facilities.
    This year we are asking for $3.7 billion in our ask--our 
backlog is at $3.7 billion--and what we are asking for will, in 
fact, begin to cut into it. I think the confusion--and I went 
back yesterday after having discussed this with you and your 
staff yesterday--I think the confusion is the chart that we 
used with the staff yesterday is of such a scale, that the 
decrease that we see----
    Mr. Rogers. It doesn't show up.
    General Klotz [continuing]. Doesn't show up. It doesn't 
show up. I think that is the explanation I have been given by 
my staff.
    But 2 years ago, the Secretary of Energy asked all elements 
of DOE to halt the growth of deferred maintenance, and we have 
worked very hard to put that into our budget. And because of 
the support we got from you last year, we begin to level it in 
2016, and if we get the request that we want, we will begin to 
see that go down.
    Mr. Rogers. Great. Thank you.
    You heard me say in my opening statement that NNSA may be a 
bit too focused on the present at the expense of the future. 
Now, I am the first to admit that this subcommittee has long 
been asking you and your predecessors at NNSA as a whole to get 
on top of today and the issues like life extension programs and 
big ongoing construction projects, and to your credit, you guys 
have made some significant steps in those areas.
    So I commend you, while also encouraging you to keep 
reaching. That is the job of an oversight committee, after all. 
But it is very important that we be thinking about these future 
endeavors. So let's talk about the future.
    Reviewing the budget request, I am deeply concerned that 
NNSA is proposing major cuts to three forward-looking, future-
focused lines that develop and mature safety and security 
technology for future warheads. By quick math, it looks like 
the request would short the safety and security technology 
maturation activities by almost $140 million. That seems very 
shortsighted, like we are simply locking ourselves into current 
technologies.
    Why is the NNSA proposing this? Is it just lack of funds?
    General Klotz. Yes, sir. The short answer is yes, sir. We 
have a lot of projects we want to cover in our weapons activity 
account in fiscal year 2017. I think the most important thing 
is we have very stable life extension programs, which are a 
very high priority for us and a very high priority for the 
Department of Defense, which expresses its requirements through 
the Nuclear Weapons Council. We are on important glide paths on 
all of those, and we wanted to make sure that those continue.
    So it was some tough decisions made, and of course General 
Davis is here to dig into the details if you would like. We do 
that. We felt that was the way in which we could balance the 
budget within the top line that we were issued.
    Mr. Rogers. Great. Congress has recently authorized two new 
programs for NNSA that are future-focused, the Stockpile 
Responsiveness Program and the Prototype Nuclear Weapons for 
Intelligence Estimates, PNWIE, program. These programs were 
created by Congress at the urging of several expert commissions 
and are about ensuring NNSA has the capabilities and skills to 
respond quickly to new or changing environments. The Stockpile 
Responsiveness Program is only a few months old because of the 
veto silliness on the fiscal year 2016 NDAA [National Defense 
Authorization Act], but tell me what NNSA is doing to implement 
it in this year and fiscal year 2017.
    General Klotz. Thank you very much, Chairman. This, by the 
way, is something which we fully support. It is extraordinarily 
important that throughout our complex we continuously exercise 
all the capabilities associated with maintaining the stockpile 
from design, to development, to manufacturing, to prototype 
building, and conducting the various experiments that test the 
various components associated with the nuclear weapons 
stockpile.
    Many of these activities are already exercised on a routine 
basis as we do our life extension program and as we do the 
routine surveillance and the science, technology, and 
engineering that lies under that.
    NNSA has recognized for some time the importance of 
maintaining stockpile responsiveness. And in the fall of 2014, 
the Defense Programs, which has responsibility for weapons 
activities, chartered what they call the Defense Program 
Advisory Group and asked them what was required to challenge 
the workforce and sustain the capability for the future. They 
have, in fact, had meetings up till now, and we are expecting a 
report early in 2016 which deals with that.
    One approach that we are using that I would like to 
highlight here that has not received much publicity is that we 
are engaged with the United Kingdom on a program called the 
Joint Technology Demonstration, the JTD. The United Kingdom, 
like us, faces many of the same issues associated with 
sustainment of their nuclear deterrence, and we are working 
together to craft a program in which designers and program 
managers in both the U.S., and our laboratories, and in the 
United Kingdom will work together through design, develop, and 
issues associated with manufacturing of components for nuclear 
weapons.
    We are also carrying out a number of hydrodynamic and 
subcritical experiments. We have asked for money in this budget 
to, in fact, enhance our capabilities to conduct those types of 
experiments at the Nevada National Security Site, and we have 
also engaged in a number of other certification readiness 
exercises associated with it.
    So we need to come back with you--you are right, the NDAA 
was signed late in the year--and come back to you with a more 
fully fleshed-out plan about how we propose to go ahead. But we 
fully share both the sentiment and the objective as laid out in 
the program.
    Mr. Rogers. Great. I thank you very much.
    The Chair now recognizes the ranking member for any 
questions he may have.
    Mr. Cooper. Thank you, Mr. Chairman. You cited some of the 
good news from General Klotz as being the work on deferred 
maintenance. I would like to point out another feature of his 
testimony, which as he said at least a couple of times, the 
magic words ``on time and under budget.'' We rarely hear those 
in Washington, but we are always grateful when we do, and I 
appreciate the good work that went into producing those twin 
excellent results, on time and under budget.
    I would also like to single out the Naval Reactors Program. 
I have always been fond of it. It is an amazing tradition of 
excellence the Naval Reactors has pursued over lo these many 
years, and I just appreciate Admiral Caldwell and his 
predecessors making that tradition of excellence happen.
    We have talked about some of the good news. Some of the bad 
news is a contractor, a former contractor at Y-12, B&W Y-12, 
now called B&W XT, mishandled classified documents. And one of 
those was a Security Level 1 violation, which is, quote, 
``actual or high potential for adverse impact on national 
security.''
    NNSA proposed a $240,000 fine, but then, apparently, 
according to this excellent article by Frank Munger of the 
Knoxville News Sentinel, NNSA decided to waive the fine, and 
the reasons given were the contractor's timely response to the 
concerns, even though later in the article it says that 
employees have been saying that this mishandling of classified 
information had been going on for years.
    So, to me, a prompt response is pretty weak after mistakes 
have been happening for years. And then the other reason was 
that B&W was already penalized by having its management fee 
reduced for fiscal year 2014.
    This, to me, sounds like 40 lashes with a wet noodle. This 
is not going to increase contractor accountability. So is this 
the right way to handle this misdisposal of classified 
information?
    General Klotz. Thank you for the question, Mr. Cooper. We 
take the protection of classified information, as well as the 
security of our facilities, extraordinarily seriously, and that 
is why in this particular case the Department of Energy 
Enterprise Assessments Office, Office of Enforcement, inquired 
into this matter and came to the conclusions that it did.
    With respect to holding the contractor, in this case the 
former contractor, at Y-12 accountable, one of the things that 
the article said, I can't remember if it was the one you cited 
or other articles, said that we had decided--that I had decided 
that somehow that B&W had suffered enough. That word does not 
show up anywhere in the letter which I sent to B&W on this 
issue.
    We made our decisions based on the rules which we follow. 
And there are a number of things which can be used to mitigate 
the civil penalty that is assessed via a formula. One of those 
is whether we have already in a sense penalized or held the 
contractor responsible through the annual fee determination 
process.
    In the case of B&W Y-12, we had already subtracted from the 
fee which they were eligible for as part of the annual program 
review and used that as a mitigator to say, while perhaps maybe 
not under law this falls into the concept of double jeopardy, 
it certainly does in terms of principle. So we hold them 
accountable in terms of the financial fines either through the 
fee determination process or through the fine process.
    There have been a couple of instances in the past, at least 
since I have been sitting in the seat at NNSA, where we have, 
in fact, imposed a civil fine because we had not taken a fee 
for that particular activity. But this was specifically noted 
in the process of determining what their fee was for that year, 
and so that is why we mitigated that.
    Mr. Cooper. Well, it is hard to unscramble this egg and we 
can't turn back the clock. But I am curious, I am assuming B&W 
and/or its subsidiaries are still doing work for NNSA?
    General Klotz. They are.
    Mr. Cooper. The Department?
    General Klotz. They are, in the broader DOE, yes.
    Mr. Cooper. Are any steps taken to make sure that they 
treat classified information more carefully at their other?
    General Klotz. Well, we hold everybody to the same 
standard, whether it is B&W or any of our other M&O [management 
and operations] contractors or subcontractors. They know what 
the expectations are. That is why we carry out the oversight 
that we do, and that is why we thoroughly investigate, 
document, and make as a matter of public record when they have 
fallen short in protecting either the facilities or the 
classified information they have responsibility for.
    Mr. Cooper. I know that you have high standards, but you 
haven't always been on duty at NNSA, and the workers here told 
the reporter that this had been going on for years. So you have 
to wonder.
    General Klotz. Yes, it had been, yes.
    Mr. Cooper. Assuming there is a second violation by B&W, 
will the fines be tougher the second time?
    General Klotz. That is I think what you call a hypothetical 
question, Congressman. So, we take this very, very seriously, 
and clearly we have to judge each and every case on the 
specific facts associated with that. But, again, protection of 
classified material, protection of the facilities which our M&O 
partners have responsibility for is one of our top priorities.
    Mr. Cooper. Thank you, Mr. Chairman. I will withhold 
further questions at this time.
    Mr. Rogers. The Chair now recognizes the gentleman from 
Arizona, Mr. Franks, for 5 minutes.
    Mr. Franks. Well, thank you, Mr. Chairman.
    Thank all of you for being here.
    General, I always especially appreciate men like yourself 
who have given their entire life to the cause of freedom.
    General, do you believe that the need for our capability to 
detect, identify, and characterize nuclear weapons programs, 
illicit diversion of special nuclear materials, and nuclear 
detonations is something that is increasing in this environment 
or decreasing, that need to be able to do that?
    General Klotz. The need is always there to be able to 
detect, and particularly as more and more countries look to 
civil nuclear power as a way to solve their energy demands and 
needs in the future, the ability to detect whether or not the 
materials that are associated with civil nuclear power are 
being diverted for military uses will continue to be a 
challenge and a greater challenge. It is something that we 
spend a lot of time thinking about. Our laboratories and our 
production facilities are engaged in significant research and 
development to ensure that we are staying ahead of the power 
curve on this.
    Mr. Franks. So it is your testimony that that need for that 
capability is an increasing need?
    General Klotz. Yes.
    Mr. Franks. And if you were to identify any particular 
area, and I realize it is sort of a broad question, is there 
anything that is especially of concern to you, of special 
concern to you, as far as being able to sense any special 
threat out there that we face in terms of proliferation?
    General Klotz. I think if we talked about specific threats, 
we would need to do that in the classified session, which is 
coming after this. But, again, what we would look for would be 
those types of indicators which suggest that a country--or, for 
that matter, a nonstate actor--is, one, trying to acquire 
special nuclear materials, and then using those special nuclear 
materials, diverting those special nuclear materials either for 
use in nuclear proliferation or nuclear terrorism.
    Mr. Franks. Well, notwithstanding the ranking member's, I 
think, cogent comments related to the diminishing involvement 
on the part of Russia with us, what would you say that the 
diminished request here for the DNN [Defense Nuclear 
Nonproliferation] and R&D [Research & Development] on budget, 
how does that square with the increasing need for the 
capability but a lesser request for the funding to do that?
    General Klotz. I would be happy to answer that, but since 
we did invite Anne Harrington and Admiral Caldwell and General 
Davis up, would it be okay if Anne addressed that because that 
falls directly, since she came all this way?
    Mr. Franks. Sure.
    General Klotz. Would that be okay?
    Mr. Franks. Absolutely.
    Ms. Harrington. First, thank you very much for the question 
and particularly for recognizing what is very important in my 
line of business, which is the evolving and emerging threats.
    To go back to your initial question very quickly on the R&D 
side, we have two programs specifically in the R&D area that 
address those issues. We have what we call our Material and 
Weapons Development Program that looks at nuclear fuel cycle, 
especially challenges from noncooperative foreign environments. 
That looks at advanced technologies for detecting proliferant 
activities, such as nuclear material production, related 
facilities, equipment processes, and that is about $80 million 
that is in this budget for that.
    And then we have another area called Ground-Based Nuclear 
Event Monitoring, and that is the detection of low yield and 
evasive tests, seismic and radionuclide detection, and 
exploitation of what we call our dynamic sensor network data, 
so how do we better interpret the data that we are collecting 
through all of the systems that we have deployed.
    So the goal of these is to meet emerging requirements, to 
detect and significantly lower the thresholds at which we can 
detect evasive testing.
    Mr. Franks. So the reason for the decreased budget is?
    Ms. Harrington. The decrease in the budget in R&D 
specifically?
    Mr. Franks. In the DNN and the R&D, yes.
    Ms. Harrington. That is related to a one-time expenditure 
that we don't have to make again. Part of it is related to a 
classified case where we have found a solution to a problem 
that we thought we were going to have to extend into future 
budgets.
    Mr. Franks. Well, Mr. Chairman, I am hoping we can maybe 
get their perspective on any characterization of the North 
Korean claim to have detonated a hydrogen bomb at some point, 
but in the closed session. And with that, my time is out. Thank 
you, sir.
    Mr. Rogers. I thank the gentleman.
    The Chair now recognizes the gentleman from the great State 
of Alabama, Mo Brooks, for 5 minutes.
    Mr. Brooks. I will defer, Mr. Chairman.
    Mr. Rogers. The Chair now recognizes the gentleman from 
Nebraska, Mr. Bridenstine, for 5 minutes.
    Oklahoma. I am sorry. That was very disparaging. I did not 
mean to say that.
    Mr. Bridenstine. I am not going to comment. I love Nebraska 
too. All right.
    General, the Secretary of Energy wrote to the Director of 
OMB [Office of Management and Budget] that because of a recent 
Committee on Foreign Investment in the United States, CFIUS, 
decision to not block a foreign company from buying a microchip 
foundry here in the U.S., NNSA will need a quarter of a billion 
dollars between fiscal year 2018 and fiscal year 2021 to 
mitigate the loss of this secure, trusted manufacturing 
capability.
    I understand these capabilities are needed both for NNSA's 
nuclear weapons work as well as for its satellite programs. 
Since I am assuming this was the Mubadala Development Company 
out of the UAE [United Arab Emirates], can you explain why 
CFIUS didn't block this transaction?
    General Klotz. Thank you for the question. Sorry, I am glad 
we clarified it was from Oklahoma since my mom is from there.
    Mr. Bridenstine. She sounds like a great lady.
    General Klotz. Two things at first, and then I will get to 
your question. First of all, of course the responsibility for 
CFIUS falls to the Treasury Department, and our role in the 
Department of Energy and in the National Nuclear Security 
Administration is to provide technical advice for decisions 
that they are making. The second thing is that the specifics of 
this case we can raise in closed session.
    Let me just say in general, however, you said something 
that was very, very important, and that is that a trusted 
supply of radiation-hardened advanced microsystems is 
extraordinarily important to the nuclear weapons effectiveness 
in our stockpile. There is sort of an assumption that radiation 
hardness is radiation hardness and that the radiation hardness 
for space systems also would apply for nuclear, but we have a 
much more stringent standard for that.
    We have done much of our work in the area of both research 
and development and fabrication of radiation-hardened 
microelectronics at Sandia National Laboratories in Albuquerque 
in a facility known as MESA, which I think stands for 
Microsystems and Engineering Science Application. It is a 
facility which, quite frankly, is long in the tooth, to go back 
to the chairman and the ranking member's comments, and needs to 
be recapitalized, and it is a facility which is using 
technology which, quite frankly, the commercial world has now 
gone beyond, for instance, using 6-inch silicon wafer 
processing as opposed to what is now the standard 8-inch.
    So we have asked for $14 million in this year----
    Mr. Bridenstine. Let me interrupt just real quick. Did DOE 
or DOD [Department of Defense] participate in the CFIUS 
decisionmaking process on this transaction?
    General Klotz. Yes.
    Mr. Bridenstine. And nobody recommended blocking it?
    General Klotz. That, I can't go into here.
    Mr. Bridenstine. Okay. But you do recognize that a quarter 
billion dollars is a lot of money to the taxpayer for this 
decision?
    General Klotz. I recognize, I would state that having a 
supply of trusted radiation-hardened advanced microsystems is 
very, very important to the United States and to the nuclear 
weapons stockpile.
    Mr. Bridenstine. So you cannot comment on how much it is 
going to cost?
    General Klotz. No. For our specific piece of what we would 
do within the NNSA, as I said, we will spend money this year to 
complete analysis of alternatives to see where we go forward on 
the MESA project.
    Mr. Bridenstine. But it will cost something. Do you know 
where that money would come from?
    General Klotz. It will come out of the NNSA budget, to do 
the work that we do within NNSA.
    Mr. Bridenstine. Have there been other CFIUS cases, for 
example, the decision to not block IBM's sale of its server 
business to China's Lenovo?
    General Klotz. That, I don't know.
    Mr. Bridenstine. Okay. We need to be very cognizant of 
these new liabilities for NNSA and the DOD.
    With that, Mr. Chairman, I will yield back.
    Mr. Rogers. I thank the gentleman.
    The Chair now recognizes the gentleman from South Carolina, 
Mr. Wilson, for 5 minutes.
    Mr. Wilson. Thank you, Mr. Chairman. And thank you for 
allowing me to participate.
    I understand the service of each of the witnesses today, 
and I look forward to continue working with you. I especially 
recognize your dedication, as an alumnus of DOE headquarters, 
and as being the only Member of Congress who has worked at 
Savannah River Site, which I am very grateful that I represent, 
along with Congressman Jim Clyburn of South Carolina.
    I ask, first, the unanimous consent to distribute a memo 
dated November 20, 2015, from Secretary Ernest Moniz to the 
President, along with section 3119 of fiscal year 2016 NDAA.
    Mr. Rogers. Without objection.
    [The information referred to can be found in the Appendix 
beginning on page 69.]
    Mr. Wilson. I appreciate Chairman Mike Rogers providing for 
discussion multiple times before this subcommittee a major 
issue: in shifting the United States plutonium disposition 
strategy from the Mixed Oxide Fuel Fabrication Facility, MOX, 
at the Savannah River Site, this method would require, by 
shifting, a renegotiation of the Plutonium Management 
Disposition Agreement with the Russian Federation.
    In a memo dated November 20, 2015, from Secretary Moniz to 
President Obama, the Secretary says in regard to the shifting 
of the disposition strategy, quote: So far we have no read on 
the MFA, the Russian Ministry of Foreign Affairs, response. 
This issue will need further interagency work in the context of 
overall complicated U.S.-Russia relations.
    There is a proposal abandoning MOX where $4.5 billion has 
been invested for 70 percent completion, and shifting to a 
strategy that even Secretary Moniz admits we do not know or 
have any idea when the Russian Federation--what they will ask 
in return.
    I am concerned the admittedly complicated U.S.-Russia 
relations will lead to a swift and conciliatory negotiation 
which is not realistic. I am concerned that we are without a 
plan if Russia asks for concessions that the United States 
cannot make. If so, we risk incurring the immense cost of 
resurrecting MOX and reassembling the workforce and 
infrastructure that are crucial to its success.
    We know that the proposed repository for the down-blended 
weapons-grade plutonium would be with the Waste Isolation Pilot 
Plant in Carlsbad, New Mexico. We know that the facility 
remains closed, yet WIPP received less funding at the request 
of fiscal year 2017 than fiscal year 2016.
    Keeping this in mind, there have been assurances that WIPP 
would open as soon as possible, but how long after WIPP reopens 
will it be operational?
    Additionally, on Tuesday night, led by Governor Nikki Haley 
and Attorney General Alan Wilson, the State of South Carolina 
was forced, as required by law, to sue the Department of Energy 
for up to $100 million in 2016, payable to the State of South 
Carolina, as a result of failure to move 1 ton of plutonium 
from South Carolina despite the State twice pushing back a 
deadline. This puts at risk the people of South Carolina and 
Georgia as the repository. Terminating this project does 
nothing to move material out of the region. This will not save 
taxpayers' dollars and will jeopardize nonproliferation. This 
committee should reject the President's proposal to terminate, 
and we should continue to move forward with construction to 
convert weapons-grade plutonium into green fuel.
    And in conclusion, General Klotz, section 3119 of the 
fiscal year 2016 NDAA directed the Department to submit, with 
the budget justification materials for fiscal year 2017, an 
updated performance baseline. Can you tell us what the update 
is on this baseline status?
    General Klotz. Thank you very much, Congressman Wilson. And 
let me just say at the outset, I know and respect the passion 
and the intensity which you bring to this particular issue, and 
I very much appreciate the fact that over the past couple years 
we have been able to work very closely together, in a very 
collegial and civil manner, as we work through what is an 
obvious difference of opinion on terms of policy. And I 
especially appreciate the many trips that you have taken to the 
MOX Facility with our people to discuss the issues that are 
there.
    There was a lot in your question, but let me just say that, 
with respect to the Plutonium Management Disposition Agreement, 
the administration, the U.S. Government remains firmly 
committed to disposing of all 34 metric tons of excess, surplus 
weapons-grade plutonium, as we have agreed with Russia in that 
agreement. But over the last couple of years there have been 
several efforts to analyze the current MOX fuel approach and 
alternatives, such as the 2014 DOE review, which was actually 
the first thing I testified----
    Mr. Wilson. And, General, I can't interrupt a general, 
because you are too good, but the question about the baseline, 
what is the status of that? And the reason I like visiting MOX, 
you have got a lot of professionals there that I like.
    General Klotz. Thank you, sir. And believe me, they 
appreciate seeing you come down and other senior leaders come 
down.
    The language in the NDAA was, I think, passed in November 
of 2015, if I am not mistaken. I am told by my staff it takes 
as much as 18 to 24 months to do a performance baseline, and 
even more than I suggested to the chairman yesterday, several 
million dollars to do that. So there is just no way, unless we 
can make time stop between November of 2015 and to the 
submission of President's budget, to do a full performance 
baseline in terms of the costs as requested there.
    Our sense still is, based on the reports that we have done, 
is that the dilute and dispose option is still a much less 
expensive and a faster way of disposing of this excess weapons-
grade plutonium.
    Mr. Wilson. And I look forward to the baseline.
    General Klotz. Yes, sir.
    Mr. Wilson. Thank you.
    Mr. Rogers. And I would say he does make a good point, 
baseline is required. So I would ask you to try to expedite 
that if you could.
    The Chair now recognizes Mr. Bishop for 5 minutes.
    Mr. Bishop. Thank you. I appreciate that.
    And, General, I would like to follow up on the line that 
Mr. Wilson was giving. I have the same concern about MOX, I am 
just not as civil as he is. But in both versions of the NDAA 
that was passed last year, including the one that was signed by 
your boss, it does clearly say that you shall carry out 
construction and project-support activities relating to the MOX 
Facility. And the 3119 section to which Representative Wilson 
referred does clearly say that you have to include those budget 
justification materials submitted to Congress in support of the 
DOE budget for fiscal year 2017 and that updated performance 
line. It is not an option.
    So I do have questions. I haven't seen that baseline 
either. You admit that it is not there. But how are you now 
disregarding the direction that was given you in the bill, in 
the law, and terminating this project? How can you respond to 
that?
    General Klotz. Well, first of all, on the construction, we 
understand in the 2016 Authorization, Appropriations Acts, we 
are to continue construction. We will continue construction 
through the end of 2016. And our proposal, of course, in the 
fiscal year 2017 budget is to terminate the program. And the 
reason that we make that argument is because the several 
studies that we have done over the past 2 years indicate that 
there is a much faster, much cheaper way to dispose of this. 
The costs of----
    Mr. Bishop. Then let me interrupt with that one, because if 
there is indeed a cheaper way, a cheaper technology, it is not 
necessarily a proven technology. You have given us no specific 
cost estimates. There is no methodology of that. I mean, you 
haven't given us the data that you need to do before you go in 
that direction.
    It seems to me that once again the administration is 
clearly bypassing the intent of Congress and not giving us the 
data that was required before you make that change in 
direction. You have no ability to close this facility.
    General Klotz. Well, the technology and the process by 
which we do it is proven. There is already close to 5----
    Mr. Bishop. Have you submitted that to us?
    General Klotz [continuing]. 5 metric tons of diluted 
plutonium currently in the facility at WIPP. So we know how to 
do that.
    Mr. Bishop. But, General, that has to be part of the 
baseline you submit to us. That is the decision we get a chance 
to make here. And I think this committee has spoken several 
times over the past few years about the direction we expect you 
to go in that.
    General Klotz. Congressman, you are absolutely right. This 
is the proposal of the administration in our fiscal year 2017 
budget proposal. We recognize, as I used to say when I taught 
political science, the President proposes and the Congress 
disposes. This is our proposal.
    Mr. Bishop. Would you have that printed and given to some 
other people within the administration?
    Could you also, though, recognize this? Will there be a 
stop-work order coming from any of the organizations here on 
this project before Congress gets to once again reaffirm what 
we want you to do?
    General Klotz. We discussed this just before coming over 
here. What I have been told by my staff is we will continue 
construction all the way through fiscal year 2016 as laid out 
by the direction of Congress.
    Mr. Bishop. Will there be a stop-work proposal after that?
    General Klotz. I don't know. I don't know the answer to 
that. Let me get back to you on that.
    [The information referred to can be found in the Appendix 
on page 73.]
    Mr. Bishop. I appreciate that. But I once again would like 
to reaffirm, I think you have seen the direction that Congress 
has given in last year's NDAA. Any deviation from that would be 
problematic at best.
    I will yield back.
    General Klotz. I take your point.
    Mr. Rogers. I thank the gentleman.
    The Chair now recognizes Mr. Lamborn for 5 minutes.
    Mr. Lamborn. Thank you, Mr. Chairman.
    General Klotz, I am going to ask you a single question, 
also following up on MOX, and then give the rest of my time to 
Representative Wilson. Regarding the termination, the possible 
termination of the MOX project, how would that be received by 
the Russians?
    General Klotz. That is a very good question, Congressman, 
and one of the issues which we have to work through. The 
Plutonium Management Disposition Agreement says that this 
plutonium will be disposed of by irradiation or by other means 
agreed to by the parties. So we can engage in a discussion with 
the Russians about this particular issue.
    In fact, we have already--the Russians came to us earlier 
in the life of this agreement and asked to change the approach 
that they were taking, and we agreed to that. In fact, then 
Secretary of State Clinton and Foreign Minister Lavrov signed 
an agreement in 2010 which memorialized that.
    Now, I think the Secretary of Energy has said this clearly. 
If not, I will say it. We have been engaged at our level in 
discussions with our counterparts in Russia about the 
possibility of this particular approach. They have listened to 
us very respectfully. Quite frankly, their view is, when you 
are ready to go forward with this, we will sit down and we will 
discuss it in more detail. And I suspect, just like it will be 
on this side of the Atlantic, it will be a whole-of-government 
approach in Russia to what their final position will be.
    But from the technical point of view, the people that we 
deal with, they fully understand what we are doing, they 
understand the economics of it, they understand the physics and 
the chemistry of it, and agree that we have a topic that we can 
sit down and discuss.
    Mr. Lamborn. Okay. Mr. Chairman, I will defer the rest of 
my time to Representative Wilson.
    Mr. Wilson. Thank you, Congressman.
    And again, General Klotz, thank you for--all of you--for 
being here. But it does concern me that the law was clear, 
section 3119, and so I hope whatever the baseline is, it can be 
provided. Because every other report that we have received, 
there were flaws, as far as I am concerned, because each one 
failed to recognize that we have a proven technology, the mixed 
oxide fuel fabrication, because this has been done in France 
for nearly 50 years.
    And then I find, when they claim that there are cost 
overruns, so much of that is because there have been changes in 
specifications which the contractors then have, by the 
Department, and which then causes additional cost. And, sadly, 
it is really frustrating to me that people would be critical 
when, in fact, it was due to changes in specifications.
    And then other issues that are just mind-numbing. When it 
is stated that for the green fuel, the fuel that will be 
produced, that there are not contracts for the fuel, well, in 
the industry, people don't buy fuel till the last second 
because of the variations of price, which we see today in other 
energy fields. And when I hear that argument, I am thinking 
that is just--and you hadn't made it, but other people have, 
other reports.
    And over and over again there are misstatements that are 
being made that I think should be addressed and to achieve what 
can be so important of nonproliferation at a time with, sadly, 
the rising tensions with the Russian Federation. Over and over 
again I can see positive of why this should be done, and so I 
really hope there will be a change of course.
    And beyond that, Dr. Regalbuto, in the budget request for 
2017, the traditional Savannah River risk management operations 
control point was separated into two control points, 
environmental cleanup and nuclear material management, causing 
considerable confusion. Can you explain the Department's 
rationale for this, and were the site contractors notified of 
the change?
    Secretary Regalbuto. Thank you for your question, Mr. 
Wilson. I do recognize that this year the way the tables have 
been printed out are a little bit different than they have been 
done in the past, and we are providing in our Web site a sheet 
for everybody to follow and track exactly where everything is, 
which we will be happy to provide to you too.
    In general, the budget request for Savannah River went up 
$111 million. This is actually a recognition of the mission of 
H Canyon, HB-Line, L-Basin, and L-Area. So with the plus-up of 
$111 million, it allows us to continue to support those 
decisions.
    In addition to our traditional milestones, which are 
related to the processing of tank waste, we also have an 
opportunity to initiate another in-tank technology that we will 
be testing starting this year and then into 2018.
    Mr. Wilson. Thank you very much for referencing H Canyon 
Facility, a world-class treasure that not everybody knows. So 
thank you.
    Secretary Regalbuto. I do use it every day, so I am very 
happy that our funding is properly----
    Mr. Wilson. I am happy to meet you any time and point it 
out. Thank you.
    Secretary Regalbuto. Thank you.
    General Klotz. Could I just add, Mr. Chairman, of course H 
Canyon is extraordinarily important, not only to the work on 
the Environmental Management side, but also to NNSA. This is a 
key facility and one which we need to maintain for the long 
term.
    Mr. Rogers. Great. I thank the gentleman. I thank the 
witnesses. I wanted to do a second round of questions, but we 
are going to be called for votes in a little over a half an 
hour. So we will just submit those to you and ask that you 
provide written responses for the record in the next 10 or 12 
days.
    But with that, I would like to recess for about 5 minutes 
while we go to 2337 for the classified portion--oh, 2216. 
Faking you off there. We will see you in 2216 in just a few 
minutes.
    [Whereupon, at 3:03 p.m., the subcommittee proceeded in 
executive session.]

      
=======================================================================


                            A P P E N D I X

                           February 11, 2016
      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                           February 11, 2016

=======================================================================

        
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
=======================================================================


              WITNESS RESPONSES TO QUESTIONS ASKED DURING

                              THE HEARING

                           February 11, 2016

=======================================================================

      

              RESPONSE TO QUESTION SUBMITTED BY MR. BISHOP

    General Klotz. The President's FY 2017 budget proposes to terminate 
the MOX project. The Department will request the MOX prime contractor 
to determine activities required to place the facility and project in a 
safe and secure state, winding down construction, design, support, and 
procurement efforts as quickly as possible so that termination can be 
done efficiently and cost effectively. DOE will issue contract 
direction to MOX Services as early as practicable to halt construction 
activities for 90 days while the discussion and development of a 
termination plan take place.   [See page 18.]



      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                           February 11, 2016

=======================================================================
     

                   QUESTIONS SUBMITTED BY MR. ROGERS

    Mr. Rogers. General Klotz, the Stockpile Responsiveness Program is 
only a few months old because of the veto silliness on the FY16 NDAA, 
but tell me: What is NNSA doing to implement it this year and in FY17? 
How is NNSA going to adjust and refocus its RDT&E and stockpile 
activities to meet the intent of the Stockpile Responsiveness Program?
    General Klotz. NNSA recognizes the nuclear security enterprise's 
need to maintain the complete set of skills and expertise to respond to 
future stockpile challenges. The enterprise need includes exercising 
all capabilities required to ensure that the nuclear deterrent remains 
safe, secure, effective, reliable, and responsive as required by the 
fiscal year (FY) 2016 National Defense Authorization Act (NDAA).
    Several activities within the current Stockpile Stewardship Program 
that meet the direction of Section 3112 of the FY 2016 NDAA have 
already been implemented. Relevant activities include:
    <bullet>  Planning for an increased rate of hydrodynamic and 
subcritical experiments (at Nevada National Security Site, U1a 
facility) to test and exercise designers, engineers, and 
experimentalists.
    <bullet>  ``Certification Readiness Exercises'' (research and 
development studies and experiments) for our technical experts to 
identify and reduce technical risks to the life extension programs 
early in the process.
    <bullet>  Significant acceleration of the shot rate at the National 
Ignition Facility to exercise designers, experimentalists and 
diagnosticians.
    <bullet>  Collaboration with the United Kingdom on the Joint 
Technology Demonstrator, which exercises the workforce throughout the 
design, develop, manufacture, and prototype lifecycle.
    <bullet>  The Defense Programs ``Capabilities for Nuclear 
Intelligence'' (CNI) portfolio with the Research Development Test & 
Evaluation portfolio provides training and development activities for 
designers, engineers, and experimentalists on non-US nuclear weapons 
concepts, providing great benefit to the stockpile stewardship program.
    <bullet>  120-day studies on interoperable warhead concepts, 
conducted in 2012, which also tested the capabilities of technical 
experts.
    <bullet>  Additionally, in early FY 2015, NNSA's Defense Programs 
Advisory Committee began analyzing how well current stockpile 
stewardship activities exercise and challenge the workforce throughout 
the entire nuclear weapons life cycle. The committee expects to deliver 
a report to NNSA in 2016, providing their recommendations relevant to 
the Stockpile Responsiveness Program. This report will provide a basis 
to establish the scope required to ensure stockpile responsiveness in 
the future. The FY 2018 Stockpile Stewardship and Management Plan will 
more fully address NNSA's plan for the Stockpile Responsiveness Program 
based on these results and further analysis.
    Mr. Rogers. General Klotz, unlike the newly born Stockpile 
Responsiveness Program, the PNWIE program has been statutorily required 
for three years. Just a few weeks ago--and almost a year late--the 
committee received the NNSA lab directors' plan for how to carry out 
this program. But the cover letter states that DOE ``is not advocating 
for implementation of the plan.'' Meanwhile the law explicitly says 
``the Secretary of Energy, in coordination with the directors, shall 
carry out the plan,'' but gives him the authority to adjust how it is 
implemented. General, I know we share the same goals here. We want to 
set NNSA up for the future and we want our lab scientists and engineers 
to do this work. What are you doing to implement this program? When 
will you begin executing an initial PNWIE effort?
    General Klotz. There was no funding authorized or appropriated 
specifically for the Prototype Nuclear Weapons for Intelligence 
Estimates (PNWIE) program in fiscal year (FY) 2016. However, DOE/NNSA 
is already executing activities that exercise the continuum of 
integrated lifecycle activities, including design, development, 
prototype building, and experimental testing. These activities include 
intelligence-informed efforts conducted by Defense Program's 
Capabilities for Nuclear Intelligence (CNI) program, which is 
coordinated with the Foreign Nuclear Weapons Intelligence Initiative 
(FNWII). The CNI effort includes a training and development practicum 
as well as activities that range from materials characterization to 
modeling to sub-system level testing. Of note, NNSA is also allocating 
additional funding to the Joint Technology Demonstrator (JTD) program 
that we recently initiated with the United Kingdom. The JTD program 
will sustain core capabilities in the design, manufacture, testing, 
fabrication and assembly of flight-ready hardware. Finally, we are 
developing a stockpile responsiveness framework to summarize and 
examine the FNWII, JTD and all ongoing stockpile activities that are 
responsive to the goals of section 3111 of the FY 2015 NDAA.
    Mr. Rogers. General Klotz, what more could NNSA be doing on 
deferred maintenance if provided additional funding? We need to start 
bending this curve down and Congress needs to step up. Can you please 
provide a list of high-priority projects that you aren't funding in the 
request?
    General Klotz. Over the past three years, NNSA has been successful 
in slowing the annual growth of deferred maintenance from $250M/year to 
$100M/year. The Consolidated Appropriations Act for FY 2016 allows us 
to stop the growth of deferred maintenance. Our FY 2017 request allows 
us to begin reducing deferred maintenance and arresting the decline of 
NNSA infrastructure by:
    <bullet>  Increasing funds for recapitalization and maintenance 
efforts
    <bullet>  Disposing of excess facilities
    <bullet>  Increasing buying power via strategic procurement of 
common building systems across the enterprise (e.g., roofs, HVAC)
    <bullet>  Improving project management capabilities to make risk-
informed investment decisions
    However, additional strategic investments in infrastructure could 
be made to accelerate NNSA's progress in arresting the declining state 
of infrastructure and reducing deferred maintenance. As requested, a 
list of prioritized infrastructure investments is provided below. Note 
that neither I nor the Secretary endorse any of these additional 
priorities given the spending limits created by the Bipartisan Budget 
Act of 2015 (BBA). We have made extensive efforts to thoroughly assess, 
prioritize, and balance the program to achieve the major requirements 
in the FY 2017 budget request. Any extra funding inserted into our 
Recapitalization program will come at the expense of other programs we 
deem more important to the effectiveness of the nuclear enterprise as a 
whole.

                                    National Nuclear Security Administration
                                            Infrastructure and Safety
                         Unfunded FY 2017 Recapitalization Projects--As of February 2016
 
----------------------------------------------------------------------------------------------------------------
                                                                                                   Total Project
   Rank      Site                                    Project Name                                    Cost ($K)
----------------------------------------------------------------------------------------------------------------
 1         LLNL      Site 300 Electric Utility Display System Upgrade                              $ 7,000
----------------------------------------------------------------------------------------------------------------
 2         LANL      LANSCE Sector A Tunnel Fire Suppression System Installation                   $ 3,000
----------------------------------------------------------------------------------------------------------------
 3         LLNL      B132N HVAC System Variable Air Control Replacement                            $ 5,000
----------------------------------------------------------------------------------------------------------------
 4         Y-12      Bldg 9204-2E Wet Pipe Systems 1&2 50 Year Sprinkler Head Replacement          $ 5,500
----------------------------------------------------------------------------------------------------------------
 5         Y-12      Bldg 9995 Air Handling Unit (AHU) 2000 Replacement                            $ 6,000
----------------------------------------------------------------------------------------------------------------
 6         Y-12      Area 5 15 kV Underground Cable Replacement                                    $ 5,000
----------------------------------------------------------------------------------------------------------------
 7         KCP       Kirtland Ops NC-135 Site Disposition                                          $ 4,900
----------------------------------------------------------------------------------------------------------------
 8         LLNL      Bldg 175 Characterization                                                     $ 1,500
----------------------------------------------------------------------------------------------------------------
 9         Y-12      Bldg 9204-2 Ceiling Concrete Replacement (additional scope)                   $ 6,000
----------------------------------------------------------------------------------------------------------------
10         PX        Bldg 12-84E Generator Replacement                                             $ 2,000
----------------------------------------------------------------------------------------------------------------
11         KCP       Bldg 2 Specialty Welding Applications Capital Equipment Replacement and       $ 1,200
                      Upgrade
----------------------------------------------------------------------------------------------------------------
12         LANL      PF-4 Vault Storage Renovation                                                 $ 7,500
----------------------------------------------------------------------------------------------------------------
13         LLNL      Utility Safety Upgrades to Plating Shop, B322                                 $ 2,500
----------------------------------------------------------------------------------------------------------------
14         SNL       C914 Seismic Upgrades to Achieve Code Compliance                              $ 9,720
----------------------------------------------------------------------------------------------------------------
15         LLNL      Bldg 292 Characterization                                                     $ 2,000
----------------------------------------------------------------------------------------------------------------
16         LLNL      Site 200 and 300 Transition and Disposition of 48 Trailers                    $ 2,500
----------------------------------------------------------------------------------------------------------------
17         SNL       SNL--Hawaii Mt. Haleakala Disposition of 3 Facilities                         $   934
----------------------------------------------------------------------------------------------------------------
18         LLNL      Site-Wide Low Conductivity Water System Station/Cooling Tower Replacement     $ 6,000
----------------------------------------------------------------------------------------------------------------
19         LLNL      Main Campus--Failing Underground Utility Valves and Water Distribution        $ 5,000
                      Piping Replacement
----------------------------------------------------------------------------------------------------------------
20         PX        Building 12-84E Generator Replacement                                         $ 2,000
----------------------------------------------------------------------------------------------------------------
21         SNL       C912 Major Building Renovation, Phase 3                                       $ 5,000
----------------------------------------------------------------------------------------------------------------
22         LLNL      B131 Engineering's Cornerstone Office Building Upgrade                        $ 7,500
----------------------------------------------------------------------------------------------------------------
23         KCP       Product Testing Area Capital Equipment Replacement                            $ 2,490
----------------------------------------------------------------------------------------------------------------
24         SNL       Substation 5 Loop Upgrade, Redundant Feeder Installation                      $ 5,000
----------------------------------------------------------------------------------------------------------------
25         Y-12      9204-04 Deinventory                                                           $ 8,000
----------------------------------------------------------------------------------------------------------------
26         PX        Bldg 12-24E Chiller Replacement                                               $ 2,000
----------------------------------------------------------------------------------------------------------------
27         LANL      Small Improvement Project in 3 Facilities (53-003,22-0005, 03-0039)           $ 1,300
----------------------------------------------------------------------------------------------------------------
28         LLNL      B805 Classified Machine Shop Infrastructure Renovation                        $ 3,500
----------------------------------------------------------------------------------------------------------------
29         LANL      CMR Initial Facility Closure (additional scope)                               $ 1,500
----------------------------------------------------------------------------------------------------------------
30         LLNL      B327 Non-Destructive Evaluation Laboratory Renovation                         $ 2,500
----------------------------------------------------------------------------------------------------------------
31         LLNL      B391 HVAC Water Temperature Control Upgrade                                   $ 3,000
----------------------------------------------------------------------------------------------------------------
32         Y-12      Re-line Failing Sections of Sitewide Potable Water Distribution Piping        $ 8,000
----------------------------------------------------------------------------------------------------------------
33         LANL      TA-03-0102 Component Manufacturing Virtual Vault Type Room Installation       $ 1,599
----------------------------------------------------------------------------------------------------------------
34         KCP       Production Area Renovations for Floor Space Optimization                      $ 2,143
----------------------------------------------------------------------------------------------------------------
35         LLNL      Disposition of Buildings B326, B221, & B221 Retention Tanks                   $ 2,000
----------------------------------------------------------------------------------------------------------------
36         SNL       C911 Renovation to Convert Office to Lab Space                                $ 5,000
----------------------------------------------------------------------------------------------------------------
37         PX        Bldgs 12-85 and 12-96 UPS Replacements                                        $ 2,250
----------------------------------------------------------------------------------------------------------------
38         PX        Bldg 12-44 UPS Replacement & Equipment Room Reconfiguration                   $ 3,000
----------------------------------------------------------------------------------------------------------------
39         PX        Bldg 11-51 Generator and UPS Replacement                                      $ 2,250
----------------------------------------------------------------------------------------------------------------
40         PX        Bldgs 12-98E1 and E2 UPS and Generator Replacement                            $ 3,000
----------------------------------------------------------------------------------------------------------------
41         LANL      Weapons Engineering Tritium Facility Glovebox and Systems Renovation          $ 8,250
----------------------------------------------------------------------------------------------------------------
           ........  Total                                                                         $ 164,536
----------------------------------------------------------------------------------------------------------------

    Mr. Rogers. General Klotz, you submitted a plan last September on 
three projects where NNSA was considering using public-private 
partnerships to build new, modern buildings and get out of some of 
these ancient facilities. What's the status of these projects? Why 
can't we get these going as public-private partnerships?
    General Klotz. As stated in our Public-Private Partnerships Report 
to Congress, we are required to perform an Analysis of Alternatives 
(AoA) to determine best value to the government. When completed, our 
analysis must be reviewed by the Office of Management and Budget (OMB) 
as consistent with the A-94 and A-11 guidelines agreed to by OMB, the 
Congressional Budget Office, and the Congressional Budget Committees.
    Pantex Administrative Support Complex (ASC):
    DOE's AoA for the Pantex ASC revealed that a public-private 
partnership would satisfy the mission need at the best value to the 
government.
    High Performance Computing Innovation Center (HPCIC)/Collaboration 
in Research and Engineering for Advanced Technology & Education 
(CREATE):
    NNSA is completing business cases for each of these projects, but 
has not yet submitted them to OMB review.
    NNSA Albuquerque Complex Project (NACP):
    NNSA included the NACP as a line item in the FY 2017 President's 
Budget Request.
    Mr. Rogers. General Klotz, I want to revisit with you my theme of 
setting NNSA up for the future. You'll recall an editorial ``Mr. 
Moniz's Nuclear Warning'' by the Wall Street Journal, published January 
12th, that is based on a remarkable letter from your boss, Secretary 
Moniz, to the Director of OMB. The letter points to the problem we 
discussed--decaying NNSA infrastructure--as well as many other problems 
that require significant funding to address. The letter concludes by 
requesting that in the FY17 budget request OMB provide NNSA ``an 
upwards adjustment of $5.2 billion over FY18-FY21 to fund the 
Administration's goals and priorities'' related to the nuclear 
enterprise. It goes on: ``Failure to address these requirements in the 
near term will put the NNSA budget in an untenable position beginning 
in FY18, will not provide an appropriate statement of the Obama 
Administration legacy, and will provide a misleading marker to the next 
Administration as to the resource needs of the nuclear security 
enterprise.''
    So General Klotz, we're talking about the future. And the budget 
request before us--while okay in the immediate year--the Secretary of 
Energy is saying it is short a billion dollars a year over the next 5 
years. And we've heard GAO say that there is a major gap between NNSA's 
programmed activities and its out-year budget profile.
    You have a duty to be clear with Congress and the American people: 
What are the no kidding budget requirements for the 5-year program at 
NNSA? Does the budget request and 5-year plan before us fix the issue 
the Secretary wrote about in his letter to OMB?
    General Klotz. I am confident that the FY 2017 President's Budget 
for NNSA meets all of our national nuclear security requirements.
    We will be able to do so because the President and Congress reached 
an agreement last fall to raise the FY 2017 sequester cap in the 
Bipartisan Budget Act. This provided us the necessary flexibility to 
put together a responsible FY 2017 budget.
    The budget projections for future years, FY 2018-FY 2021, remain 
subject to the sequester caps set in the Budget Control Act of 2011. 
Adjustments to the Congressional sequester caps are needed so the next 
Administration can continue the progress we have made in our nuclear 
security programs.
    Mr. Rogers. General Klotz, will NNSA submit a rebaseline on the MOX 
project, as required by the FY16 NDAA?
    General Klotz. Yes. The Department is in the process of updating 
the performance baseline.
    Mr. Rogers. General Klotz, we see that the budget request includes 
a substantial decrease in the amount that was expected to be requested 
for the life extension program for the W80-4 warhead that will arm the 
LRSO cruise missile in the late-2020s. Last year you projected you 
would request $312 million for this program in 2017, but now we see you 
are only requesting $220 million. This is a 30% reduction and it's 
occurring very, very early in the program. I'm worried this shows a 
lack of commitment to this incredibly important program. Our military 
and DOD officials have spoken repeatedly about the critical nature of 
getting LRSO in the field. So, to be clear, is the Obama Administration 
100% committed to the 2025 date for a first production unit for this 
warhead? Is this commitment iron clad and will this budget request 
support that? Can we say we have your word on this?
    General Klotz. Yes, the Administration is committed to the 2025 
date for a first production unit (FPU) of the W80-4. NNSA balances 
priorities among the near-term and long-term needs of managing the 
stockpile to include life extension programs; necessary sustainment and 
recapitalization of infrastructure; essential investment in research, 
development, test, and evaluation; and activities to maintain the 
expertise of the highly-skilled workforce to ensure a responsive 
capability. The W80-4 Life Extension Program (LEP) remains a high 
priority. The reduction was caused by the delay in budget execution as 
a result of the 2016 continuing resolutions. This delay slowed 
technology maturation activities in Phase 6.2 (Feasibility Study and 
Design Options) and has resulted in a projected carry-over of roughly 
$50 million that will be used to address program requirements in FY 
2017.
    Mr. Rogers. General Klotz, the B61-12 and W76-1 life extension 
programs are both well underway at this point. Please give us a status 
update on these programs. Are you confident they will finish on time 
and on budget? What are the major risks to the successful execution of 
these programs? Are they technical? Or are they in getting the funding 
needed to execute?
    General Klotz. The FY 2016 enacted budget for the B61-12 Life 
Extension Program (LEP) is $643.3 million and the FY 2017 budget 
request is $616.1 million with $2.9 billion planned for FY 2018-2021. 
That funding profile reflects the transition from Development 
Engineering (Phase 6.3) to Production Engineering (Phase 6.4), which 
occurred in June 2016, as component activities begin pilot production 
and production qualification activities. The final cost and schedule 
baseline for the B61-12 LEP will be completed in August 2016 as part of 
the Baseline Cost Report.
    As with each major modernization program budget, the FY 2016 budget 
for the B61-12 included an amount of management reserve to address 
emerging risks and has been used to offset shortfalls in leveraged 
science and engineering programs that are supporting technology or 
production readiness. The B61-12 LEP expects to carryover a portion of 
the risk based funds into FY 2017 giving it the ability to support the 
W88 ALT 370 reprogramming proposed in FY 2016. While there are 
potential concerns with reducing the B61-12 risk funds, there is a 
greater impact if the W88 ALT 370 is not fully funded in FY2016. 
Currently, the B61-12 LEP shares $250 million in common electronics 
development costs with the W88 ALT 370. If these activities were 
delayed, it would impact B61-12 common scope and/or increase B61-12 
costs. On balance, it is a manageable risk to fund $5 million of the 
W88 Alt 370 reprogramming. That is not to say that the reprogramming 
carries no risk to the B61-12 LEP, but this option does offer the least 
risk to the overall Defense Programs mission.
    The most significant risks to the B61-12 LEP are inconsistent 
funding, significantly reduced funding, and continuing resolutions of 
significant duration. If the program does not receive the funding 
requested through the Future Years Nuclear Security Program (FYNSP), 
the program may not be able to complete the work load that has been 
planned for each year, address risks that are realized in future years, 
or maintain the current schedule. Additionally, a year-long continuing 
resolution in FY 2018, for example, could hold the program to the FY 
2017 funding level--a reduction of more than $110 million from what is 
planned in the FYNSP for FY 2018. Those unplanned and dramatic funding 
reductions are the most serious risk to the program.
    The W76-1 LEP is on schedule and within budget. The program is in 
its eighth year of full-scale production. By the end of FY 2015, NNSA 
had delivered almost 60 percent of the total required W76-1 warheads to 
the United States Navy. The last production unit will be produced no 
later than the end of FY 2019.
    Mr. Rogers. General Klotz, counterintelligence and cybersecurity 
threats to NNSA and its facilities are increasing in quantity and 
sophistication. Can you assure us NNSA can defend against all of these 
threats and prevent the escape of sensitive information? The DOE-IG 
recently reported on a host of problems NNSA is having implementing its 
``2NV'' cloud computing solution. What did the IG find and do you agree 
with them? How are you fixing this?
    General Klotz. The NNSA is doing everything it can to assure that 
it is protecting the information and information assets with the funds 
appropriated and the resources available. Cybersecurity is one of the 
greatest challenges the U.S. Government faces. NNSA is always working 
to stay ahead of our adversaries to protect our networks and databases. 
We take this task very seriously as our program is responsible for 
safeguarding our Nation's most sensitive nuclear security information. 
We are modernizing our sensors and defenses, conducting independent 
performance evaluations, and have employed a strong central control 
construct to reduce our risk and the probability of data exfiltration.
    However, there are no guarantees in cybersecurity, the adversaries 
are continually evolving using more advanced technology and there are 
always opportunities to improve our security posture.
    With regard to the NNSA's challenges with 2NV, the DOE IG 
identified three basic points of failure: lack of project management, 
lack of oversight, and ineffective communication mechanisms between 
project teams and NNSA leadership. NNSA concurs with the IG's 
assessment of the project and through reforms that have been 
implemented since the initial launch of the 2NV project, NNSA is 
confident that we have put in place the administrative infrastructure 
needed to ensure effective implementation of 2NV and our other IT 
projects.
    NNSA has carefully reassessed project requirements and realigned 
the deliverables to mission and business functions. NNSA has also 
implemented numerous project management improvements. Most notably, we 
have issued and implemented the requirements of NNSA Supplemental 
Directive 415.1, Project Oversight for Information Technology, and 
established the Office of Policy and Governance to provide ongoing, 
independent oversight for our projects to ensure the principles of the 
new directive are consistently applied.
    Mr. Rogers. General Klotz, when will NNSA submit data in compliance 
with subsection (f)(4) of 50 U.S.C. 2441a, regarding the number of 
contractor employees who have been employed under a service support 
contract to NNSA for a period of greater than two years? This 
information is critical to understanding whether NNSA is illegally 
employing personal service contractors. Please submit the data by to 
the committee by the end of March.
    General Klotz. NNSA does not have any personal service contracts, 
as we do not have statutory authority to enter into such contracts. 
NNSA submitted data in compliance with subsection (f)(4) of 50 U.S.C. 
2441a regarding support service contracts with the President's FY 2017 
Budget. A copy of the appropriate section from the President's FY 2017 
Budget is attached (please see attached graphic).

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 


    Mr. Rogers. General Klotz, please elaborate on why NNSA 
proposes such significant cuts to technology maturation efforts within 
Defense Programs. What are the long-term effects of such cuts?
    General Klotz. In the FY 2017 President's Budget Request, 
technology maturation (early development) funding was reduced in order 
to fund higher priority needs within the weapons program. NNSA is 
balancing near and long-term risks in a fiscally constrained 
environment, incrementally prioritizing long-term technologies for 
planned insertion opportunities in future stockpile modernization 
programs.
    Mr. Rogers. General Klotz, NNSA's staffing analysis shows that 
Defense Programs and Defense Nuclear Nonproliferation program have the 
same number of federal employees. But Defense Programs has four times 
the funding and most of the safety, security, and liability issues. Why 
is there such a huge imbalance in staffing?
    General Klotz. Both Defense Programs (DP) and Defense Nuclear 
Nonproliferation (DNN) require an appropriate amount of staffing to 
ensure their respective mission requirements are achieved.
    Since FY 2012, the DNN full-time equivalent (FTE) count has 
decreased from 260 to its FY 2017 projected level of 187 (28% 
decrease).
    The DNN business model includes managing twelve major programs to a 
global customer base supporting over 100 countries, international and 
USG interagency partners. DNN also exercises nuclear export control 
regulatory responsibilities which has significant federal manpower 
responsibilities.
    As DNN's mission evolves in response to future Presidential policy 
guidance related to global nuclear security threat reduction, the 
program will continue to analyze how the future mission requirements 
will impact future manpower and staffing needs. In FY 2017, DNN will 
continue its efforts to meet current and future workforce needs by 
analyzing how evolving missions are affecting job requirements.
    NNSA, like other technically inclined agencies, faces increasing 
attrition numbers on an annual basis, due to the difficulty of 
attracting and retaining skilled, trained, and educated individuals to 
fill (and backfill) critical roles within the nuclear security 
enterprise. NNSA has embarked on a workforce and human capital strategy 
which leverages all the management tools and flexibilities at our 
disposal to ensure that we recruit, hire and retain the best workforce 
to execute our mission. Reshaping of the entire NNSA workforce, 
including DNN and DP, over the next several years will be essential to 
effectively executing our mission. This includes identifying and 
developing the appropriate skill sets as well as examining the size of 
the overall and programmatic work forces.
    Mr. Rogers. Ms. Regalbuto, you served on the technical team for the 
Waste Treatment Plant (WTP) under Secretary Chu and now you lead DOE's 
Environmental Management program. Just this past year, DOE asked the 
court to amend the consent decree to provide the Department another two 
full decades before being required to start processing tank waste at 
the Hanford Site in Washington State. Do you believe you can get the 
entire WTP system, including WTP's pre-treatment facility, operational 
by 2039? Will you have to build more double shell tanks at Hanford and 
at what cost? What will be the total lifecycle cost for WTP for design, 
construction, operation, and eventual demolition?
    Secretary Regalbuto. The Department of Energy (DOE) had proposed 
milestones, together with conditions that could require those 
milestones to be modified as additional information is obtained, based 
in part, on the need to resolve the remaining technical issues at the 
Waste Treatment Plant's Pretreatment and to a lesser degree, High-Level 
Waste facilities. The milestones proposed by DOE were also based on the 
uncertain amount of redesign activities that may be needed once 
technical issue resolution is completed. DOE informed the court that it 
will voluntarily initiate direct feed low-activity waste operations as 
soon as 2022, allowing vitrification to begin for the much larger low-
activity portion of the tank waste prior to achievement of initial 
plant operations for the overall WTP complex. After the date of this 
hearing, the Court in the case of Washington v. Moniz, NO: 2:08-CV-
5085-RMP, issued its third order regarding the parties' proposals to 
modify the Consent Decree. DOE is currently undertaking a detailed 
examination of the Court's decision. The tank cleanup mission at 
Hanford is both massive and complex. DOE remains committed to the 
successful completion and operation of the Waste Treatment Plant as a 
method for processing waste stored in underground tanks at Hanford as 
soon as practicable.
    DOE does not expect to have a need to build more double-shell 
tanks. If, however, the construction of new double-shell tanks becomes 
necessary, DOE estimates it would cost $85 million to $150 million to 
build a new, one-million gallon double-shell tank.
    A credible estimate of total lifecycle cost for the WTP design, 
construction, operation, and eventual demolition is not available at 
this time due to a number of uncertainties and technical and 
programmatic issues associated with the WTP Project. Key issues 
include: resolution of technical issues with the Pretreatment and High-
Level Waste facilities; on-going efforts to re-baseline the Low-
Activity Waste Facility, Analytical Laboratory, and Balance of Facility 
portions of the project; and assessment of the on-going litigation with 
the State of Washington. All of these factors will likely result in 
changes to the Total Project Cost for the WTP project and the costs 
associated with operations and eventual demolition.
    Mr. Rogers. Ms. Connery, what are the safety impacts of NNSA's 
deteriorating infrastructure and $3.7 billion backlog of deferred 
maintenance? Is all of this decrepit infrastructure becoming a safety 
hazard? Has your Board held any hearings on this issue, or sent any 
letters to DOE or NNSA? Does DNFSB support efforts to buy-down NNSA's 
backlog of deferred maintenance?
    Ms. Connery. The complex's aging facilities and resultant backlog 
of maintenance are continuing safety concerns. Delays to NNSA's efforts 
to modernize its infrastructure have exacerbated safety related issues 
and have necessitated that ongoing programmatic work be performed in 
degrading defense nuclear facilities that do not meet modern safety 
standards. The Board supports DOE and NNSA's efforts to develop new 
defense nuclear facilities and will continue to work closely with them 
to integrate safety into their designs at the earliest stages.
    The Board agrees that infrastructure risk can become safety risk. 
It should be noted, however, that the overall NNSA deferred maintenance 
backlog of $3.7 billion includes nondefense nuclear facilities and 
infrastructure that have little or no bearing on the safety of defense 
nuclear operations. Many of the items in NNSA's deferred maintenance 
database are roofs, office air conditioning systems, shop utilities, 
and the like. At some sites these types of deferred maintenance vastly 
exceed corrective maintenance backlogs or deferred preventive 
maintenance on nuclear safety-related structures, systems, and 
components (SSC) and processing equipment. Nevertheless, infrastructure 
risk in a nondefense nuclear facility can pose a nuclear safety risk 
under some circumstances.
    The number and severity of risks increases when the amount of 
deferred preventive maintenance and corrective maintenance backlog 
rises. Each nuclear facility has a Documented Safety Analysis (DSA) and 
accompanying Technical Safety Requirements which set forth the 
preventive maintenance and surveillance requirements for the safety 
class and safety significant SSCs credited in the DSA to prevent or 
mitigate hazardous accident scenarios. The implementation of these 
maintenance and surveillance requirements is key to ensuring the SSCs 
will reliably perform their credited safety functions.
    The Board has made maintenance of safety systems and management of 
aging infrastructure continuing areas of emphasis in recent years. In 
the past three years, this effort has included on-site reviews of 
maintenance programs at five NNSA facilities by our staff, multiple 
visits by Board Members to evaluate maintenance programs and aging 
infrastructure at the Y-12 National Security Complex and Pantex, public 
hearings at Pantex and Y-12 which addressed these topics, letters to 
NNSA on maintenance programs at Pantex (November 12, 2015) and Sandia 
National Laboratories (May 12, 2014), and a letter to NNSA on the 
structural integrity of aging production facilities at Y-12 (February 
4, 2015). In addition, the Board annually receives a written report and 
briefing from NNSA on maintaining safety of aging facilities at Y-12 in 
response to a prior reporting requirement issued by the Board.
    Furthermore, the Board has also increased its focus on emergency 
preparedness and response capabilities, the last line of defense for 
this aging infrastructure. Hosting both public meetings and hearings, 
the Board subsequently made several recommendations complex wide and 
site specific on emergency preparedness and response capability. In 
September 2014, the Board issued Recommendation 2014-1, Emergency 
Preparedness and Response, to address deficiencies with DOE's 
promulgation of and oversight of compliance with requirements. The 
Board focused staff reviews in 2015 on the assessment of implementation 
of these requirements at defense nuclear facilities. These assessments 
included site-specific reviews at the Pantex Plant and Savannah River 
Site as well as observation of drills and exercises at the Y-12 
National Security Complex, Los Alamos National Laboratory, Lawrence 
Livermore National Laboratory, Sandia National Laboratories, Pantex 
Plant, Savannah River Site, and Hanford Site. The review at the Pantex 
Plant led to the identification of significant issues that warranted 
near-term resolution. As a result, on November 24, 2015, the Board 
issued Recommendation 2015-1, Emergency Preparedness and Response at 
Pantex, to address the identified deficiencies.
    Mr. Rogers. Ms. Connery, do you believe DNFSB's enabling statute 
requires all Board Members to be provided full access to all Board 
information, including information on all Board employees and 
personnel? Congress has legislated on this matter twice and that was 
the clear intention. Do you agree?
    Ms. Connery. The Atomic Energy Act, as amended, provides that each 
Board Member shall have full access to all information relating to the 
performance of the Board's functions, powers, and mission. I fully 
support individual Board Members' access to information as interpreted 
by the Department of Justice in the memo previously provided to this 
Committee. I agree to be bound by the opinion from the Department of 
Justice to allow sharing of all information, including information on 
all Board employees and personnel, necessary for the Board to fulfill 
its policy making function and its oversight function over the 
Department of Energy. I further agree with the Atomic Energy Act 
language that I will not withhold from Board Members, information that 
is made available to me that relates to the Board's policy and 
oversight functions. In the sharing of information, I seek the advice 
of the General Counsel to ensure that the Board complies with the 
Atomic Energy Act and all other statutory and legal requirements for 
the protection of information such as the Privacy Act and the 
protection of classified information.
    Mr. Rogers. Ms. Connery, what steps are you taking to address the 
concerns expressed by DNFSB employees in recent OPM employee surveys?
    Ms. Connery. DNFSB took a number of actions in FY 2015 to address 
employee concerns expressed in the 2014 Federal Employee Viewpoint 
Survey (FEVS) survey results. Examples include: establishment of a 
working group to adopt agency core values; use of an executive coach on 
an ongoing basis to develop better communication techniques; regular 
agency-wide and office staff meetings to provide increased 
opportunities for employee feedback and participation; and expanded 
leadership training for its executives. In 2015 DNFSB's FEVS results 
indicate the agency made notable progress in multiple areas. DNFSB 
achieved a response rate of 84% (34% higher than the government-wide 
average) and experienced increases in almost all scores (96%), with 59% 
of the scores improving by double-digits. I believe this shows the 
agency is moving in the right direction to address employee concerns, 
and we will continue to build on these efforts to influence positive 
change.
    Mr. Rogers. Admiral Caldwell, you're putting together a report to 
Congress on the potential of using low-enriched uranium fuel in navy 
reactors. Your predecessor (who is now your boss) told us last year 
that there are no military benefits provided by switching to low-
enriched fuel in Navy reactors. Do you agree?
    Admiral Caldwell. US Navy warship requirements determine naval fuel 
system design features including use of highly enriched uranium (HEU) 
fuel. Substituting low-enriched uranium (LEU) fuel for the HEU in 
current naval fuel systems would decrease reactor energy and lead to 
more frequent reactor refueling. LEU fuel would fundamentally decrease 
the available energy in a naval reactor, thereby reducing a naval 
warship's availability and longevity. The impact of LEU may be 
mitigated in aircraft carriers by developing an advanced naval fuel 
that could increase uranium loading beyond what is practical today and 
meet the rigorous performance requirements for naval reactors. An 
advanced fuel system might enable either higher performance with HEU 
fuel or use of LEU fuel in aircraft carriers. Advanced fuel development 
is estimated to take about $1 billion, 10-15 years to develop, and 
would have to begin well in advance of any ship application. Successful 
development of an advanced fuel system is not assured.
    Switching to LEU fuel in naval reactors would be beneficial in 
allowing the U.S. to take a leadership role in non-proliferation by 
reducing the need to produce new HEU. Although an LEU development 
program would likely not produce a more militarily desirable reactor 
design, the knowledge gained during the research and development work 
would be beneficial to advance the state-of-the-art in U.S. naval 
reactor design and manufacturing. Fuel development work would also help 
sustain and build the cadre of highly specialized naval fuel experts 
and unique fuel irradiation and post irradiation examination 
infrastructure.
    Mr. Rogers. Admiral Caldwell, what are your top priorities for 
FY17? Is your budget aligned with that of the larger Navy? What happens 
if your program gets out of alignment with Navy programs like the OHIO-
class Replacement program?
    Admiral Caldwell. Naval Reactors' entire budget supports the safe 
and effective operation of the nuclear-powered Fleet, today and 
tomorrow. Naval Reactors' funding requests can be directly linked to 
this single, over-arching priority of supporting the safe and effective 
operation of the nuclear-powered fleet. In FY 2017, this entails 
effective oversight of the operation and maintenance of 97 reactors in 
73 submarines, 10 aircraft carriers, and 4 training and research 
reactors. This priority will be met in the most effective and judicious 
way possible.
    The main budget components that support today's operating fleet are 
Naval Reactors Operations and Infrastructure (NOI), Naval Reactors 
Development (NRD), Program Direction and Construction. The remainder of 
the budget, primarily OHIO-Class Replacement Reactor Systems 
Development, S8G Prototype Refueling and the Spent Fuel Handling 
Recapitalization Project, supports tomorrow's fleet. In FY 2017, the 
OHIO-Class Replacement project will continue life of the ship reactor 
core manufacturing development activities and detailed design of 
reactor plant heavy equipment to support FY 2019 GFE procurement. The 
S8G Prototype Refueling project will complete construction of the 
Radiological Work and Storage Building and commence refueling equipment 
checkout and training at the shipyards. The Spent Fuel Handling 
Recapitalization Project will finalize key facility and equipment 
requirements and advance facility design to support establishing the 
Performance Baseline in FY 2018 and the start of construction in FY 
2019.
    Our budget is aligned with the larger Navy. We work closely every 
day with our partners in the Navy to ensure that our budget is aligned 
with the mission, performance requirements and schedules.
    Specifically, for the OHIO-Class Replacement program, the 
Department of Energy and Navy efforts are directed at supporting this 
schedule, including development of the propulsion plant design to 
support procurement of long-lead components in FY 2019 to support a 
construction start in FY 2021 and ship delivery in FY 2028. After 
completing ship operational testing, the first OHIO-Class Replacement 
must be on strategic patrol by 2031 to meet STRATCOM force level 
requirements. Given that the first OHIO-Class Replacement submarine, a 
ship twice the size of the VIRGINIA-Class submarine, is planned to be 
constructed within the same span of time; this schedule is aggressive 
and requires close coupling of Department of Energy and Department of 
Navy activities to ensure on time ship delivery.
    The design and construction of OHIO-Class Replacement is a complex 
effort that requires extensive coordination between not only Naval 
Reactors and the Navy's Shipbuilders, but also the Navy's Strategic 
Systems Programs that are responsible for the missile systems and the 
British Navy, who will use the Common Missile Compartment design in 
their upcoming SSBNs. Because they each depend so heavily on each 
other, these four design efforts must be synchronized, in close 
collaboration to retire risk early and minimize estimated construction 
costs.
    Given the criticality of Naval Reactors' Department of Energy 
activities to Navy priorities and mission, funding cuts to Naval 
Reactors' DOE budget can adversely impact strategic objectives and 
plans, especially ship design and construction and nuclear operator 
training.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. COOPER
    Mr. Cooper. A recent NAS report recommended a clean-slate approach 
to building new nuclear weapons and building prototypes in order to 
exercise design and production skills. Do you agree and do you believe 
NNSA and the labs should focus on building prototypes? What would the 
cost be and how would it compare with NNSA priorities?
    General Klotz. NNSA recognizes the need to ensure that the nuclear 
security enterprise maintains the complete set of skills and expertise 
to respond to future challenges, exercise capabilities required to 
ensure that the nuclear deterrent remains safe, secure, effective, 
reliable, and responsive as required by the FY 2016 National Defense 
Authorization Act (NDAA). For this reason, NNSA's current Stockpile 
Stewardship and Stockpile Management portfolios address many of these 
necessary capabilities. In particular, our current portfolio includes a 
spectrum of strategically aimed efforts in prototyping from small-scale 
validation experiments to well-diagnosed hydro tests up to larger 
demonstration experiments. At the component level, we are prototyping 
new technologies for improving safety and for limited-life components 
that will make the stockpile easier to maintain. We are also building 
weapon prototypes at the system level and using our world-class science 
facilities--the National Ignition Facility (NIF) at LLNL and the Dual 
Axis Radiographic Hydrodynamic Test (DARHT) facility at LANL--to study 
how these prototypes perform under extreme conditions found in nuclear 
weapons. Lastly, NNSA has an effort to study how new technologies, in 
particular advanced manufacturing, can be used to accelerate the 
prototyping process
    In early FY 2015, NNSA charged the Defense Programs Advisory 
Committee with analyzing how well current stockpile stewardship 
activities exercise and challenge the workforce throughout the entire 
nuclear weapons lifecycle to ensure critical skills were not being 
neglected. When finished, the Committee's report will be used to inform 
adjustments to future activities to include building prototypes.
    Mr. Cooper. Following up on a previous question--a recent article 
revealed that classified information, including information related to 
uranium operations was dumped in the regular garbage at Y12 for 20 
years. Is NNSA doing a damage assessment?
    General Klotz. In conjunction with the recent issuance of the 
Preliminary Notice of Violation (PNOV), the Program Office (NA-10) is 
working with the Y-12 Field Office to review the need to conduct a 
damage assessment, taking into consideration all relevant information, 
to include the current circumstances of the material being maintained 
at a DOE controlled burial location. A document review is underway, and 
a fact-finding trip to Y-12 is planned, to speak with knowledgeable 
individuals first hand.
    Mr. Cooper. What dismantlement work is planned in FY17 and why is 
this funding necessary?
    General Klotz. The funding requested in the FY 2017 budget for 
dismantlements supports the President's goal to accelerate the 
dismantlement rate of previously retired weapons by 20 percent. NNSA 
will hire and train additional technical staff in FY 2017 to be ready 
to increase dismantlement rates starting in FY 2018. This will allow 
NNSA to dismantle the weapons retired prior to 2009 by the year 2021, 
rather than the original goal of 2022.
    Mr. Cooper. What are the next steps and challenges on 
nonproliferation that NNSA is addressing? Are we laying the proper 
foundation to be ready to meet new proliferation threats such as the 
expansion of nuclear know-how about the nuclear fuel cycle if nuclear 
energy spreads, or such as 3D printing?
    General Klotz. The work of NNSA's Office of Defense Nuclear 
Nonproliferation (DNN)--supporting the ``Nuclear Threat Reduction'' 
pillar described in the NNSA Enterprise Strategic Vision--is carried 
out within the context of a dynamic global security environment, which 
is described in NNSA's annual report entitled Prevent, Counter, and 
Respond--A Strategic Plan to Reduce Global Nuclear Threats. This 
environment is characterized by the persistent vulnerability of nuclear 
and radiological materials (particularly in regions of conflict); the 
pressure on arms control and nonproliferation regimes from enduring 
interest in nuclear weapons capabilities by state- and non-state 
actors; the global expansion of nuclear power and possible spread of 
fuel cycle technology; the increasing opportunities for illicit nuclear 
material trafficking due to expanding global trade volumes and 
increasingly sophisticated procurement networks; and the rapid advance 
of technology (including cyber) that may shorten nuclear weapon 
development pathways and directly affect nuclear safeguards and 
security missions.
    Of the many developments in the global nuclear security environment 
relevant to DNN's work, one of the most important is the possible 
proliferation risk associated with the expansion of civil nuclear 
energy. Ensuring that ``nuclear newcomers'' (i.e., states that do not 
currently have civil nuclear power programs and generally have little 
experience with managing nuclear technologies) are able to develop 
safety, security, safeguards, export controls, and emergency response 
systems to support their emerging nuclear energy programs will continue 
to be an important challenge.
    DNN is helping to address this challenge through various efforts, 
including the development of assured fuel supply and spent fuel take-
back strategies to discourage newcomer states from developing 
indigenous fuel-cycle capabilities. DNN is also engaging partners from 
day one to help them build the safety, security, safeguards, and export 
control capacity and infrastructure necessary to ensure safe and secure 
nuclear programs. Finally, DNN is launching an ``over-the-horizon'' 
strategic study focused specifically on the implications to DNN 
programs of future trends in the global nuclear fuel cycle, including 
the expansion of nuclear energy. The results of this study will help 
inform future programmatic activities.
    Emerging technologies such as additive manufacturing represent 
another important development in the global security environment. On a 
regular basis, new technologies emerge that can significantly benefit 
our nuclear security enterprise but that also pose proliferation risks. 
NNSA is working within the Department and with other U.S. Government 
agencies to establish a systematic, coordinated approach to ensuring 
that the U.S. Government can reap the benefits of emerging technologies 
while mitigating associated proliferation risks.
    Last year, NNSA established an Emerging Technologies Working Group 
(ETWG) as a formal mechanism to proactively identify, analyze, and 
respond to emerging technologies of concern. The group is co-chaired by 
DNN and the Office of Defense Programs, and includes participation from 
various offices Department-wide and the DOE complex. The ETWG began its 
work by considering the proliferation risks associated with additive 
manufacturing. As an immediate measure, the ETWG is developing 
classification guidance to help control this particular technology. The 
ETWG also is considering whether other policy guidance or export 
control regulations would be feasible and appropriate to apply as the 
technology develops.
    In accordance with the requirement in Section 3139 of the FY 2016 
National Defense Authorization Act, NNSA is also working with the U.S. 
interagency to develop the President's strategy to address additive 
manufacturing nonproliferation risks while balancing national security 
needs. NNSA will be briefing various congressional committees on the 
status of that strategy in the near future.
    Mr. Cooper. Is NNSA considering the sterilization option (which 
might be a simpler option that would dispose of the pits at Pantex, and 
which the Red Team report chaired by Dr. Thomas Mason referenced), in 
addition to the dilute and disposal option for disposing of excess 
weapons-grade plutonium?
    General Klotz. NNSA has announced that it will pursue the dilute 
and dispose option as it is a proven, demonstrated technology. Other 
options may be further evaluated as part of the NEPA process or the 
project management critical decision process, as deemed reasonable.
    Mr. Cooper. Are you confident of the contents of the drums that 
will be going to the site? Are you confident that either drums that are 
at WIPP, either currently above ground or below ground would not cause 
the same accident?
    Secretary Regalbuto. The Office of Environmental Management is 
confident of the safety and the content of the transuranic (TRU) waste 
containers currently stored above-ground at the Waste Isolation Pilot 
Plant (WIPP). All waste emplaced at WIPP has been isolated in the 
disposal rooms, and separated from the environment and workers by steel 
bulkheads, in accordance with all applicable requirements.
    Regarding future shipments to WIPP, including containers at the TRU 
waste generator sites awaiting shipment and TRU waste containers that 
will be shipped to WIPP in the future, our TRU waste program efforts 
will ensure there is no threat of a thermal reaction similar to the 
breached drum containing nitrate salt-bearing waste from the Los Alamos 
National Laboratory (LANL).
    This confidence is based on rigorous changes made at WIPP which 
include: completion of corrective actions identified in response to the 
WIPP Accident Investigation Reports; enhancements to the WIPP safety 
envelope, the WIPP Safety Management Programs and safety basis; 
improvements to the oversight and assessments of the TRU waste program 
by WIPP management and operations contractor, the Carlsbad Field Office 
and DOE Headquarters; rigorous new requirements for the 
characterization of waste, chemical compatibility and waste container 
constituents; and improvements to the WIPP waste acceptance criteria. 
The inventory of LANL wastes remaining from the waste stream involved 
in the WIPP incident will be treated to ensure any risk is fully 
mitigated prior to shipment to WIPP.
    Mr. Cooper. Why is the DNFSB important for nuclear safety and the 
nuclear enterprise?
    Ms. Connery. The Board is the only agency that provides independent 
safety oversight of the Department of Energy's defense nuclear 
facilities, ensuring safe operations for the workforce and the public. 
These facilities and their operations are essential to our Nation's 
defense, performing work that includes: the assembly, disassembly, and 
surveillance of nuclear weapons; fabrication of plutonium pits and 
other weapon components; production and recycling of tritium; nuclear 
criticality experiments; subcritical experiments; and a host of 
activities that address the radioactive legacy resulting from 70 years 
of nuclear weapons operations. In operating the facilities that 
accomplish these missions, the Department of Energy functions 
predominantly as a self-regulating entity, responsible for managing 
cost and schedule as well as safety. The Board was established to 
provide a needed counterbalance to budgetary and schedule pressures and 
to serve as an extraordinarily expert technical advisor on matters of 
safety. The Board has assembled a technical staff of unparalleled 
capability that consistently identifies safety issues that eluded the 
Department of Energy and its contractors, enabling the Board to press 
DOE to correct problems and provide adequate protection to the workers 
and the public. Recent examples of the Board's contributions to safety 
include the Board's identification of the following major safety 
issues:
    <bullet>  Systemic problems in DOE's readiness to respond to 
emergencies at its sites which had persisted unaddressed despite the 
wakeup call of Fukushima Daiichi--The Secretary of Energy accepted the 
Board's recommendation and issued an implementation plan that commits 
to corrective actions including a complex-wide assessment of problems 
and a rewrite of DOE's governing directive, DOE Order 151.1C, 
Comprehensive Emergency Management System.
    <bullet>  Dysfunction of Los Alamos National Laboratory's 
criticality safety program, including the exodus of the laboratory's 
criticality safety staff--In response, the Laboratory Director paused 
all work involving fissile materials at the Los Alamos Plutonium 
Facility and initiated corrective actions including rebuilding the 
lab's criticality safety expertise, reevaluating the criticality safety 
evaluations for fissile material operations, and gradually 
reestablishing the lab's ability to safely perform fissile material 
operations through a comprehensive series of readiness assessments.
    <bullet>  DOE's failure to manage the upkeep of the software code 
RADCALC, which is used to determine the type of packaging needed for 
safe shipment of various radioactive materials--In response, DOE 
alerted users to suspend use of the noncompliant software, audited the 
responsible vendor and issued a stop work order based on the audit's 
results, and initiated an extent of condition review for similar 
software.
    <bullet>  Improper analysis and control of flammable gas hazards in 
the Defense Waste Processing Facility, which converts high-level 
radioactive wastes into glass in a high-temperature melter--In 
response, DOE instituted compensatory measures to place the facility in 
a safe condition, formed a dedicated team to resolve the safety issues, 
and began the development of a new flowsheet for the facility to 
address the hazard.
    <bullet>  Failure of the design strategy for Hanford's Waste 
Treatment Plant to properly prevent erosion and plugging of process 
piping that DOE plans to rely on for transfers of highly radioactive 
slurries for decades without maintenance--DOE plans to address this 
issue through systematic evaluation of hazards, reassessing the 
pipeline design strategy, performing additional erosion testing, and 
establishing appropriate waste acceptance criteria for the facilities.
    In addition to identifying safety issues of such magnitude, the 
Board also assists DOE in characterizing safety concerns and developing 
avenues for improvement. In the past year, for example, the Board 
provided an informational report to DOE that systematically evaluated 
the structures of aging facilities at the Y-12 National Security 
Complex, to assist DOE in making informed decisions regarding the 
potential to use those facilities for programmatic work for several 
more decades. Likewise, the Board provided a major report to DOE on 
opportunities to reduce the quantity of radioactive material-at-risk in 
the Los Alamos Plutonium Facility, to reduce the hazard posed by this 
facility to workers and the surrounding communities.
    Without the expertise and needed external perspective provided by 
the Board, the Department of Energy would have a significantly reduced 
capacity to identify and resolve safety issues at its defense nuclear 
facilities.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. LARSEN
    Mr. Larsen. Do you expect a bow-wave in terms of costs for funding 
the life extension programs? How is NNSA preparing to handle 4-5 
concurrent life-extension programs?
    General Klotz. FY 2017 Future Years Nuclear Security Program 
(FYNSP) funding for life extension programs (LEPs) increases from 
$1.340 billion in FY 2017 to $1.919 billion in FY 2021, with 
significant increases occurring in FY 2018 (+$266 million) and FY 2021 
(+$281 million). Beyond the FYNSP, the nominal cost of the LEPs, as 
reflected in Figure 4-33 of the FY 2017 Stockpile Stewardship and 
Management Plan (SSMP), plateaus, varying between $1.8 billion and $2 
billion per year. Effectively, we will have climbed the ``bow wave'' 
during the FY 2017 FYNSP. However, it is important to note that only 
the W76-1 and B61-12 LEPs currently are baselined, and the W88 Alt 370, 
while baselined for its original scope, is being re-baselined to 
reflect the addition of the conventional high explosive refresh. The 
estimates for all other LEPs being performed over the next 25 years 
(W80-4, IW-1, IW-2, IW-3, and B61-13) are based on planning estimates 
as described in the FY 2017 SSMP, and their cost should be viewed as a 
cost range. These estimates are done in advance of the Phase 6.2/2A 
studies that will establish the specific scope for each LEP, so they 
are subject to change once those studies are completed. For the period 
FY 2022-2041 this cost range varies by about +/-$300 million per year 
around the nominal values described above. Regarding how NNSA is 
preparing to handle four to five concurrent life extension programs, 
the best preparation is advance planning for their execution. That's 
one of the reasons the SSMP is a 25-year plan that lays out our entire 
scope of activities and current plans for the LEPs. It should also be 
noted that while multiple LEPs may be ongoing at any particular point 
in time, some will be in Engineering Development where the 
preponderance of activities fall on the labs, while others will be in 
production which falls more heavily on the plants. We are already 
successfully executing three LEPs simultaneously.
    Mr. Larsen. What are the opportunities to expand R&D into 
technology to detect and better understand current and future 
proliferation threats?
    General Klotz. The DNN R&D program makes strategic contributions to 
DOE's goal to reduce nuclear security threats through the innovation of 
unilateral and multi-lateral technical capabilities to detect and 
better understand: 1) foreign nuclear weapons program activities; 2) 
illicit diversion of special nuclear materials; and 3) global nuclear 
detonations. The program is emphasizing R&D that supports low-yield or 
evasive nuclear test monitoring, Big Data (such as data analytics and 
computation), and evaluation of emerging technologies (such as 
microfluidics and additive manufacturing) that have multiple commercial 
applications as well as proliferation threat potential in nuclear 
material production applications.
    Mr. Larsen. The FY16 NDAA mandated transferring certain NNSA 
facilities that qualified for transfer to the Department of Energy 
Environmental Management program within 3 years. What additional 
funding would the DOE need and can the EM program execute?
    Secretary Regalbuto. The Joint Explanatory Statement to the 
Consolidated Appropriations Act, 2016 (P.L. 114-113) states that ``The 
Office of Environmental Management shall not accept ownership or 
responsibility for cleanup of any National Nuclear Security 
Administration facilities or sites without funding specifically 
designated for that purpose. The Department of Energy (DOE) is directed 
to identify all requests for transfers of facilities or projects from 
other DOE offices in its budget request justifications in future 
years.'' The Fiscal Year (FY) 2016 National Defense Authorization Act 
(P.L. 114-92) requires that the Department develop a plan for the 
activities relating to the deactivation and decommissioning of 
nonoperational defense nuclear facilities.
    DOE had already begun an effort to address excess contaminated 
facilities. In January 2015, the Secretary directed the establishment 
of an Excess Contaminated Facilities Working Group within the 
Department. The Working Group developed and executed an enterprise-wide 
data collection effort to obtain updated cost and risk assessments to 
deactivate, decontaminate, decommission, and demolish excess 
facilities. The Working Group is updating and validating data as a part 
of its efforts to develop policies to institutionalize a corporate 
approach to address issues associated with the transfer of National 
Nuclear Security Administration (NNSA) facilities to the Office of 
Environmental Management (EM). The Working Group also will be 
finalizing and issuing a report in 2016 as required by section 3133 of 
the FY 2016 NDAA.
    Mr. Larsen. Can you explain the decrease in funding in the FY17 
President's Budget relative to the FY 16 enacted level and FY 16 PB 
level for Richland operations at Hanford?
    Secretary Regalbuto. EM establishes its cleanup priorities 
considering risk, compliance milestones and life-cycle cost 
considerations across the EM complex. The FY 2017 budget request 
reflects the progress in risk reduction at Richland and positions the 
Department to continue significant cleanup activities, which include 
the Plutonium Finishing Plant closure; a sustainable path toward 
addressing the contamination beneath the 324 Building; groundwater 
remediation; and K West Basin sludge removal.
    Mr. Larsen. The FY 16 NDAA required a report on the feasibility of 
using LEU in naval reactors. This research was supported with $5 
million in the omnibus. Can you provide an update on the status of this 
study?
    Admiral Caldwell. The report on the feasibility of using LEU in 
naval reactors is currently in interagency review. Upon completion of 
the interagency review, Naval Reactors will formally sign out the 
report and provide it to the congressional defense committees.
                                 ______
                                 
                  QUESTIONS SUBMITTED BY MR. GARAMENDI
    Mr. Garamendi. Does the dilute and dispose option entail any 
concern over criticality as the MOX contractor is arguing? And now that 
the Department of Energy has terminated the program, is it still worth 
doing a new funding baseline for MOX?
    General Klotz. Sandia National Laboratory has reviewed the recent 
assertions of the risk of criticality issues at WIPP and concluded they 
are unfounded. According to Sandia, while burial at WIPP would increase 
the amount of weapon-grade plutonium several fold, criticality of down-
blended and packaged Pu-239 cannot result. The assertion that 
Criticality Control Overpacks (CCO) would become crushed resulting in 
criticality is simplistic and not credible. The salt formation would 
squeeze the disposal rooms and waste, but this process cannot separate 
the Pu from the diluting materials to form an undiluted critical mass.
    The FY 2016 NDAA requires the Department to submit a revised 
Performance Baseline. Therefore, the Department is in the process of 
updating the performance baseline.
    Mr. Garamendi. How much work are you doing in FY17 or how much 
capability are you retaining specifically to support the Interoperable 
Warhead (IW1), which was deferred at least 5 years in 2015 into 2020 or 
beyond?
    General Klotz. NNSA plans to restart the IW-1 Phase 6.2, 
Feasibility Study and Design Options, in FY 2020 to support an FY 2030 
first production unit. NNSA is continually developing technologies to 
support a variety of options for future nuclear weapon alterations 
(Alts), modifications (Mods) and life extension programs (LEPs), 
including IW-1. As those technologies mature, individual weapon 
programs assume funding responsibilities to further develop those 
technologies to full maturity for program-specific applications. As the 
B61-12 LEP and W88 Alt 370 move to full scale production, NNSA will 
transition staff and other resources from those programs to the IW-1 
program.
    Mr. Garamendi. Does NNSA need to produce any pits to support the 
current and planned life extension programs?
    General Klotz. There is no requirement to produce pits for the 
current life extension programs (W76-1, B61-12 and W80-4). NNSA may 
need to produce pits to support the first interoperable warhead (IW-1). 
NNSA remains committed to meeting the NWC requirements for plutonium 
pits and we are making progress on the fabrication of a development pit 
using existing materials. This will help exercise our plutonium 
capabilities and critical skills and is a major step toward reaching 
pit manufacturing goals.
    Mr. Garamendi. In terms of the funding profile, when does NNSA 
start seeing a bow-wave for funding the life extension programs?
    General Klotz. Current funding in the FY 2017 Future Years Nuclear 
Security Program (FYNSP), specifically for life extension programs 
(LEPs), increases from $1.340 billion in FY 2017 to $1.919 billion in 
FY 2021, with significant increases occurring in FY 2018 (+$266 
million) and FY 2021 (+$281 million). Beyond the FYNSP, the nominal 
cost of the LEPs, as reflected in Figure 4-33 of the FY 2017 SSMP, 
plateaus, varying between $1.8 billion and $2 billion per year. 
Effectively, we will have climbed the ``bow wave'' during the FY 2017 
FYNSP.
    It is important to note, however, that only the W76-1 and B61-12 
LEPs currently are baselined, and the W88 Alt 370, while baselined for 
its original scope, is being re-baselined to reflect the addition of 
the conventional high explosive refresh. The estimates for all other 
LEPs being performed over the next 25 years (W80-4, IW-1, IW-2, IW-3, 
and B61-13) are based on planning estimates, as described in the FY 
2017 SSMP, whose cost should be viewed as a cost range. These estimates 
are done in advance of the 6.2/2A studies that will establish the 
specific scope for each LEP and are subject to change once those 
studies are completed. For the period FY 2022-2041, this cost range 
varies by about +/-$300 million per year around the nominal values 
described above.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. BISHOP
    Mr. Bishop. This committee acted through the NDAA to ensure that it 
is better informed about the authorization for export of critical 
nuclear technologies. The February 25 deadline for the administration 
to notify to Congress a list of those technologies is almost upon us. 
Will the administration be in compliance?
    General Klotz. The Department of Energy has prepared, in 
consultation with the Departments of State, Commerce, and Defense, the 
Nuclear Regulatory Commission, and the Director of National 
Intelligence, a list of technologies that should be protected from 
diversion to a military program in those countries that are considered 
a ``covered foreign country'' in Section 3136 of the FY 2016 NDAA.
    In order to develop this list of technologies, the Department and 
the consulting agencies considered what possible contribution would be 
made to a nuclear weapon or naval propulsion program if such technology 
or assistance was diverted from a peaceful intent to a military 
program. The Department is finalizing this list and its submission to 
Congress and will be prepared to brief Congress on the results of our 
consultations.
    The Department is also working to revise its 10 CFR Part 810 
application review process to ensure that for any application that 
comes forward for a listed technology to a ``covered foreign country,'' 
the appropriate notifications are made to Congress in accordance with 
the NDAA. Finally, the Department also is developing a process to 
ensure that the list of technologies remains up to date and addresses 
technological developments within the nuclear industry and the nuclear 
weapon and naval propulsion capabilities of the ``covered foreign 
countries.''
    Mr. Bishop. Maximizing U.S. influence on global nuclear safety, 
security and nonproliferation is a concern of this Committee, and we 
cannot achieve this goal without an effective and efficient nuclear 
export authorization process. What is the status of the DOE's Process 
Improvement Program for nuclear technology exports under Part 810?
    General Klotz. In February 2015, the Department concluded a three-
year comprehensive revision of its regulations at 10 CFR Part 810 (Part 
810), governing the transfer of nuclear technology and assistance 
abroad and to foreign persons. The revised Part 810 regulation 
clarifies and streamlines the authorization process to reflect the pace 
of nuclear commerce, while continuing to address proliferation risks 
associated with nuclear technology transfer. DOE's National Nuclear 
Security Administration (NNSA) currently is implementing a Part 810 
Process Improvement Plan (PIP) and e810 online authorization system to 
further improve and modernize the Part 810 application and U.S. 
interagency review process.
    As a part of the PIP, NNSA has committed to make the Part 810 
program compliant with ISO 9001, which includes a continuous 
improvement program. NNSA already has implemented a number of actions 
intended to improve and expedite the review process, including: a new 
docketing procedure; issuing specific authorizations conditional on 
subsequent receipt of foreign assurances; and developing a procedure to 
use Atomic Energy Act (AEA) Section 57b.1 for foreign assurances for 
China. This action will eliminate the need to secure government-to-
government assurances for specific transfers authorized under the U.S.-
China 123 Agreement; instead, those transfers will be covered by the 
assurances of the 123 Agreement. This not only eliminates the most 
time-consuming element of securing a specific authorization, but places 
those technology transfers under the stronger nonproliferation 
assurances of the 123 Agreement. Other areas identified in the PIP that 
the Department continues to work on and will implement over the next 
weeks and months include: improving process and data management; 
reforming and publishing in the Federal Register a new U.S. interagency 
process for 810 reviews; revising internal DOE review procedures to 
reduce time in process; improving assistance to exporters with more on-
line guidance and technical resources; more enforcement and compliance 
monitoring of Part 810 reporting by U.S. persons; and considering 
implementing a risk-based application review approach.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. WILSON
    Mr. Wilson. In a memo dated November 20, 2015 from Secretary Moniz 
to the President, the Secretary says--in regards to the shifting of the 
disposition strategy--``So far, we have no read on MFA response. This 
issue will need further interagency work in the context of overall, 
complicated U.S.-Russia relations.'' Can you explain the current status 
of talks with the Russians of shifting our plutonium disposition 
strategy?
    General Klotz. Consistent with the PMDA, the United States has been 
in contact with the Russian Government since 2013 to keep it apprised 
of the U.S. reviews of disposition methods. During July 2014 
consultations in Moscow in PMDA channels, the Russian side advised that 
the two sides should re-engage in consultations after the United States 
had made a decision. In January of this year, a team apprised Russia of 
the Administration's decision to pursue another disposition method and, 
at an appropriate date, to pursue consultations as provided for in the 
PMDA.
    Mr. Wilson. We have already spent $4.5 Billion on the MOX project. 
What is the Department's plan if Russia were to ask for concessions 
that the United States can not make in order to support a change in our 
disposition strategy?
    General Klotz. The PMDA (paragraph 1 of Article III) clearly 
provides a path for the Parties to agree on methods of disposition that 
do not entail irradiation as fuel in reactors (``any other methods that 
may be agreed by the Parties in writing''). We will not speculate on 
what may or may not be Russian views in these consultations or on what 
legal form an agreement might take.
    Mr. Wilson. What would the overall cost be to resurrect the MOX 
project if Russia is ultimately unwilling to allow a change in our 
disposition strategy?
    General Klotz. While it is difficult to provide a definitive 
estimate, we expect it would take at least 1-2 years to ramp the 
project staff back up, which would add approximately $600-900 million 
to the total cost of the project. The projected $600-900 million 
increase to restart would be in addition to the overall lifecycle cost 
of the MOX approach estimated to be $30-50 billion.
    Mr. Wilson. WIPP received less funding in the request for FY17 than 
it received in FY16. The Department of Energy has stressed its 
commitment to open the facility as quickly as possible, but how long 
after WIPP reopens will it be fully operational?
    Secretary Regalbuto. FY 2017 budget request provides funding to 
resume waste emplacement operations in December 2016, so long as it is 
safe to do so. The WIPP Recovery Plan identified that a replacement 
permanent ventilation system is required to support an increased rate 
of waste emplacement operations at WIPP. This will require two capital 
asset projects that are being implemented consistent with the 
Department's project management requirements. The design of these 
projects is not sufficiently mature to allow estimating when WIPP will 
achieve this increased rate of waste emplacement operations.
    Mr. Wilson. In the budget request for 2017, the traditional 
``Savannah River Risk Management Operations'' control point was 
separated into two new control points, ``Environmental Cleanup'' and 
``Nuclear Material Management''--causing considerable confusion. Can 
you explain the Department's rationale for this and were the site 
contractors notified of this change?
    Secretary Regalbuto. As a result of the interdependency of nuclear 
materials management and disposition activities at the Savannah River 
Site across multiple Department of Energy (DOE) missions, a new control 
point entitled ``Nuclear Material Management'' is being proposed for 
Fiscal Year (FY) 2017. Under this control point, planned work 
activities under the PBS 12, Spent Nuclear Fuel Stabilization and 
Disposition Program would be merged with PBS 11, Nuclear Material 
Stabilization and Disposition Program.
    Accordingly, the scope and funding for the surveillance and 
maintenance of non-operating nuclear facilities (F-Area Complex 
Facilities as well as the Receiving Basin for Off-Site Fuels Facility), 
disposition of source term holdup within the F-Area Materials Storage 
Facility (235-F), and future deactivation of nuclear facilities 
currently operating at the Savannah River Site, which were previously 
included in PBS 11, would be placed into a new PBS entitled 
``Surveillance, Maintenance, and Deactivation.'' This new PBS would be 
placed under the ``Environmental Cleanup'' control point along with the 
Solid Waste Stabilization and Disposition and Soil and Water 
Remediation PBSs. Site contractors were notified of these proposed 
modifications when the FY 2017 President's Budget Request was released.

                                  [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
